<html>
<title> - THE FISCAL YEAR 2016 BUDGET REQUEST FOR THE U.S. DEPARTMENT OF ENERGY</title>
<body><pre>[Senate Hearing 114-44]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 114-44

 THE FISCAL YEAR 2016 BUDGET REQUEST FOR THE U.S. DEPARTMENT OF ENERGY

=======================================================================

                                HEARING

                               before the
                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      THURSDAY, FEBRUARY 12, 2015


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                       Printed for the use of the
               Committee on Energy and Natural Resources
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

94-045                         WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001              
               
               
               
               
               
               
               
               
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia

                    Karen K. Billups, Staff Director
                Patrick J. McCormick III, Chief Counsel
             Brian Hughes, Senior Writer and Policy Advisor
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
       Allen Stayman, Democratic Senior Professional Staff Member
       
       
       
       
       
       
       
       
       
       
       
       
       
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman, and a U.S. Senator from Alaska...     1
Cantwell, Hon. Maria, Ranking Member, and a U.S. Senator from 
  Washington.....................................................     2

                                WITNESS

Moniz, Hon. Ernest, Secretary, U.S. Department of Energy.........     5

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Cantwell, Hon. Maria
    Opening Statement............................................     2
Moniz, Hon. Ernest
    Opening Statement............................................     5
    Written Testimony............................................     7
    Responses to Questions for the Record........................    67
Murkowski, Hon. Lisa
    Opening Statement............................................     1

 
 THE FISCAL YEAR 2016 BUDGET REQUEST FOR THE U.S. DEPARTMENT OF ENERGY

                              ----------                              


                      THURSDAY, FEBRUARY 12, 2015

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. We are calling to order the Energy Committee 
this morning. Today we are honored to have the Secretary of 
Energy, Dr. Moniz, with us. Good morning.
    As we visited yesterday in my office, I alerted you that we 
were going to have a very quick business meeting to conclude 
some business of the Committee relating to subcommittees and 
committees' rules. It will take, hopefully, no more than two 
minutes, and then we will be able to proceed with you and the 
introduction of the President's budget as it relates to energy.
    We do have a sufficient quorum of members here this 
morning, so the transcript will reflect that the Committee is 
now in session in a business meeting.
    [Recess]
    The Chairman. We will now begin with the issues before the 
Committee. Again, welcome, Secretary Moniz.
    We are here to consider the President's budget request for 
the Department of Energy for FY'16. This marks the first of 
three budget hearings that our Committee will hold before the 
end of this month. This is our first formal review of DOE's 
budget since April of 2013.
    Mr. Secretary, I think it has been about a year and a half 
since you have been before the Committee. That is a long time. 
We would like to have you here more frequently.
    In fairness and in thanks and appreciation to you, I know 
that you have made the effort to come and visit many of us 
outside of the formal Committee process and to keep us informed 
of what is happening within the Department, so I appreciate 
that personal outreach.
    I do not think it comes as a surprise to anyone on the 
Committee, but I have been critical of the President's overall 
budget as it busts through statutory spending caps. It raises 
taxes by more than $2 trillion over the next decade. There has 
been a lot of discussion by many that the President's budget is 
going nowhere. Other terms have also been used, but I do think 
hearings like this are useful because it allows us to take a 
granular look at it and see if there aren't areas that we can 
be working together on.
    The budget for the Department of Energy is hardly the most 
controversial part of the President's budget, and I would 
credit much of that to you, Secretary Moniz. I think you have 
been a steady leader. I think you have been one who is intent 
on improving the Department's performance. I think you have 
been successful in avoiding, perhaps, some of the drama that we 
sometimes see around here. Again, I have been appreciative of 
your leadership.
    I am obligated to repeat my usual criticism of DOE's 
proposed budget. This request embraces the ``all of the above'' 
energy policy on paper and in words. I think if we look through 
our packets the term ``all of the above'' is certainly there in 
the handout that we have, but I worry that it is ``all of the 
above'' in words and not necessarily in practice.
    We see significant increases for efficiency, vehicles, and 
renewable technologies, but virtually all the funding for 
fossil energy would be directed to carbon capture, methane, or 
some other environmental consideration.
    I think we have gotten to that point. We have agreed, and 
we had settled the discussion about whether American energy 
production can affect global prices. I think it clearly does, 
and I think we recognize that. I think it is a good thing, and 
we are benefitting from it. The question is whether we are 
going to keep this going or instead allow the President to lock 
down our resources like we have seen just recently in the past 
several weeks in places like Alaska.
    DOE clearly has a role here too. It should be researching 
methane hydrates and other unconventional resources to help 
ensure that energy remains affordable long into the future.
    So as we discuss the budget aspects within the Department 
of Energy, Mr. Secretary, I would hope we can find some common 
ground. I have indicated my support for the opportunities and 
the innovation we see coming out of ARPA-E, that we can be 
doing more there, and we have had an opportunity to talk about 
that.
    As you continue your leadership there, know this Committee 
will be working with you on those areas where we can advance 
America's energy policy. We are also going to be very cognizant 
and very careful as we shepherd taxpayer dollars into these 
innovations and technologies.
    With that, I will turn to the Ranking Member, and then we 
will hear from the Secretary.

 STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair.
    Secretary Moniz, it is a pleasure to see you again and I 
appreciate this opportunity to discuss the President's Fiscal 
Year 2016 budget request for the Department of Energy.
    Overall, I am pleased that the proposal calls for more than 
a nine percent increase over last year and the President's 
proposal demonstrates a strong commitment to investments that 
we need to build a competitive, innovative, energy economy.
    As the overview this budget highlights that the Department 
is entrusted with four critical responsibilities.
    One, maintaining our nuclear arsenal and playing a key role 
in our non-proliferation activities around the globe.
    Two, protecting public health through a long term 
commitment to cleaning up the legacy of nuclear weapons 
production.
    It is often overlooked that those two responsibilities 
typically account for more than half of the DOE budget. I 
should just say, as you know, we've discussed many times that 
Washington State is home to the Hanford Nuclear Reservation, 
one of the world's largest nuclear cleanup projects. The people 
in my state fully expect the Department of Energy to honor its 
responsibilities to finish this job.
    As Senator Murray noted in our budget discussions that the 
budget contains some mixed news for Hanford in Fiscal Year 2016 
while the Department is devoting significant resources to waste 
treatment plants and tank farms, there is concern that we may 
be giving some of the other clean-up priorities short shrift. 
So we need to make sure the resources are there for DOE to live 
up to the commitment to clean up this waste.
    It is also the case that workers at Hanford have been 
exposed to chemical vapors with uncertain health effects 
multiple times, and this is certainly unacceptable. So I 
appreciate your attention to this issue. It has been critical. 
It is critical that we not only establish a process that works 
with this Department and this contractor, but that it also 
works in the future. I very much appreciate the attention to 
that.
    Besides those two priorities DOE is also responsible 
through your Energy Innovation Agenda for transitioning to a 
low carbon energy future and to providing the backbone for our 
nation's research economy.
    I want to commend you for the strong commitment to the 
advanced energy agenda reflected in the President's budget. 
This is a research community that has made much of the 
revolutionary change in our energy economy possible.
    Wind and solar production have tripled since 2008. Gasoline 
consumption has dropped over eight percent since 2005. The 
electricity grid is becoming more resilient with wider 
deployment of smart grid and distributed technologies. Gas 
prices are lower now, but we know they won't stay that way 
permanently.
    So DOE and the labs, like the Pacific Northwest lab and 
many others, have led the way in developing transportation 
alternatives such as advances in engine technologies, 
lightweight materials, battery technologies, biofuels, all 
critical to ensuring that consumers are better insulated from 
price fluctuations in oil and gasoline that regularly cause 
hardships.
    The research and development and deployment activities of 
the Department of Energy are driving economic transformation. 
I'm pleased to see that the proposed increase in the 
Department's Office of Electricity includes a 94 percent 
increase in smart grid R and D, 75 percent increase for energy 
storage and 133 percent increase in infrastructure security and 
energy restoration and a strong commitment to cyber security 
research and development. Similarly, I am pleased to see a 42 
percent increase proposed for the Office of Energy Efficiency 
and Renewable Energy which is shepherding innovations in 
everything from building efficiencies, to drop-in biofuels, to 
new fuel cell applications.
    This budget will boost the Office of Science a modest five 
percent, but we make sure that we are continuing to invest in 
our key innovation infrastructure which is fundamental to the 
advances in a low carbon energy technology. We need to build on 
our recent track record of success.
    I think the key thing we want to get across about the 
budget is the energy transformation currently underway in our 
country is having a profound effect on our competitiveness as 
an economy. De-coupling the growth in our economy from energy 
growth is like ushering in a new era of energy productivity. 
For decades American energy consumption increased as the 
economy grew.
    In the past seven years, however, we have dramatically 
decreased that trend. From 2007 to 2014 our economy grew over 
eight percent. At the same time energy consumption actually 
fell by 2.5 percent. This represents a dramatic increase in our 
energy productivity. By contrast during the same period, from 
1990 to 2000 our GDP growth of 40 percent was linked to growth 
in the U.S. energy consumption of 17 percent. This recent 
decrease in the demand for energy represents billions of 
dollars of savings to American families and businesses each 
year, resources that can be spent or invested in other areas of 
the economy. De-linking economic growth from one of the most 
expensive inputs to it, energy, will help us to continue 
America's improved competitiveness for the future.
    I also want to say I am pleased the budget will also 
continue our national commitment to the deployment of 
efficiency and renewable energy technologies--new clean energy 
technologies. Renewable efficiency and natural gas generated 
over $50 billion of investment in 2014. I look forward to this 
budget proposal that would put significant influences on 
modernizing and strengthening our electricity grid.
    Although our nation's grid is vital to our economy and way 
of life, we need to make sure that it is even more efficient 
and resilient, and it likewise serves as a platform for 
innovation. We have made good progress as a country in 
improving this, but now is the time to expand our existing 
efforts to integrate technologies that will transform energy 
transmission and distribution.
    One of the new programs in the budget would accelerate the 
replacement of outdated transformers and other important grid 
components with new technology. This would make the grid more 
resilient, particularly in response to disruptions that could 
be caused by disaster or cyber attacks. The program would also 
help state and local governments as they deploy new 
transmission and energy storage systems to the 21st century.
    So Mr. Secretary, finally I just want to say I look forward 
to your upcoming release of the Quadrennial Energy Review. I 
expect we will have a chance to take an even broader look at 
the challenges we face that can't be done in just one budget 
year. I look forward to working with Chairwoman Murkowski and 
my colleagues here on the Committee to ensure the Department of 
Energy continues to play a vital role in meeting our nation's 
challenges.
    Thank you.
    The Chairman. Thank you. With that, let's proceed to you, 
Mr. Secretary. Again, thank you for being here this morning.

 STATEMENT OF HON. ERNEST MONIZ, SECRETARY, U.S. DEPARTMENT OF 
                             ENERGY

    Secretary Moniz. Great.
    Well, thank you very much, Madam Chair, Ranking Member 
Cantwell and all members of the Committee.
    Let me start by just responding to your statement, Chairman 
Murkowski, that we will continue to be available and our senior 
leadership available to all members of the Committee for 
discussions on the issues of concern. Of course, when we have 
even more confirmed people, we'll have more people available to 
come and talk to you. [Laughter.]
    Secretary Moniz. So we will look forward to that happening 
as well.
    We have submitted a very detailed statement for the record, 
so I'll try to be brief in these opening comments.
    As already noted, one of the major features of the energy 
scene is the dramatic increase in oil and natural gas 
production and natural gas liquids across the board.
    This has been, as noted, a major factor in our economic 
recovery in many dimensions, at the household level. EIA 
predicts a $750, on average, household savings just in gasoline 
prices this year. Jobs and manufacturing, balance of payments, 
all very, very, very, very many facets of this economic 
recovery tied to energy.
    Second point, I do want to address the ``all of the above'' 
energy strategy. Again, we feel that we are very strongly 
committed to that. As we drive to lower costs to clean energy 
technologies on the--to just address directly, for example, the 
coal issue.
    Clearly carbon capture is a major focus but I want to 
emphasize that we have, of course, R and D programs that go 
beyond fossil energy, ARPA-E, for example. But also a new 
initiative in this budget, for example, is not in our budget, 
but in the Department of the Treasury, our investment tax 
credits for carbon capture projects and sequestration tax 
credits. I think we are bringing many tools to the table to 
address that.
    Clearly I'm going to move on to other areas in these very 
brief remarks. In addition to energy we have major mission 
responsibilities in our basic science infrastructure for the 
country, in nuclear security and in environmental cleanup. As 
noted, our overall budget request for $29.9 billion is 
approximately a nine percent increase.
    In science it's five plus billion, a five percent increase. 
I just want to note that among many features we continue to 
build the new cutting edge facilities that our research 
community needs. The 31,000 researchers that we serve each year 
in the national laboratories from completing, just dedicating, 
for example, the new light source at Brookhaven, on budget and 
under schedule, to doing new projects, coherent light source, 
for example, rare isotope beam facility in Michigan, et cetera.
    Energy $5.4 billion, an increase of 27 percent. I think we 
will be discussing much of the innovation agenda there. I do 
want to emphasize, again, other aspects of the program like 
advancing efficiency standards, a very strong focus on advanced 
manufacturing which will have many impacts throughout the 
energy technology space. For example, our last manufacturing 
institute on composites will influence everything from wind to 
lighter weight vehicles for efficiency and also initiatives 
that we think are very important with international 
implications like super truck 2 with 100 percent efficiency 
gain in Class A vehicles.
    I do want to single out ARPA-E since the Chair mentioned 
that. There's just a tremendous amount of innovation going on. 
We've requested an increase from $280 to $325 million, and I 
want to say that the fifth anniversary of the first contracts 
in ARPA-E is coming up this spring. That's now enough of a run 
and we are seeing that program blossoming in terms of products 
going into the marketplace and having spinouts of that now 
acquired by large companies in terms of investing considerable 
capital to develop those.
    I will also mention that in addition to the technology 
programs in our budget and frankly, very much tied to what we 
will be discussing, hopefully soon, on the Quadrennial Energy 
Review, are things like two state grant programs that we 
propose for a total of $63 million, one on reliability planning 
and one on energy assurance planning.
    Nuclear security, $11.6 billion for the NNSA, a ten percent 
increase. This will sustain the loose sight of it sometimes, I 
think, the remarkable science-based approach which has allowed 
us to sustain our deterrent with our testing. We moved 190 
kilograms of weapons material out of six countries last year, 
three of them in collaboration with Russia. We delivered the 
first next generation nuclear reactor for our next aircraft 
carriers while in this budget continuing for the Ohio class 
replacements in submarines.
    Finally, environmental management, $5.8 billion. Again, for 
perspective, we know we have some very, very tough problems. 
Senator Cantwell has mentioned some of those at Hanford, but 
for perspective, the EM program has cleaned up over 85 percent 
of its sites and 90 percent of the land area over its program 
life. Now we still have some of the most difficult projects 
ahead of us.
    One thing is in terms of in New Mexico, WIPP, a very, very 
high priority to get that back online. We believe we're on 
schedule for roughly one year from now resuming operations at 
WIPP.
    I think those are a few of the areas in our budget, and I 
think I look forward to discussion with the Committee.
    Thank you.
    [The prepared statement of Secretary Moniz follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   
    
    The Chairman. Thank you, Mr. Secretary. I think we are 
going to have good discussions, because we have got some new 
members here this morning so we will begin.
    You mentioned the Quadrennial Energy Review, as Senator 
Cantwell did. We're looking forward to that release. We are 
going to have a hearing here in Committee focused on that.
    I hope that we have got your commitment and that of your 
staff at DOE that as we move forward as a Committee in putting 
together a more comprehensive or a broader energy bill, we can 
work with you building off what we hope to see within this QER. 
Where we may need technical assistance or witnesses coming 
before the Committee, I hope we have your cooperation with 
that.
    Secretary Moniz. Absolutely, and I know that both in this 
body and in the House as well, there's a very strong interest 
in moving infrastructure projects forward. We very much look 
forward to that, and I can assure you that we will be able to 
deliver a lot of analysis to back up our infrastructure 
recommendations.
    The Chairman. I appreciate that. As I mentioned to you 
yesterday and I will mention to my colleagues, I am going to 
use every budget hearing I have, as well as every 
appropriations hearing I participate in as a member of that 
Committee, to raise the issue of what this country is doing to 
advance the interests that we have as an Arctic nation. We are 
going to be assuming the Chair of the Arctic Council in just a 
matter of months, and this has been something that feels like I 
am pushing a snowball up a mountain all alone.
    I am looking for some help from colleagues, and I have got 
Senator Cantwell and Senator King willing to do that as well. 
You have to have the focus in the budget as well.
    The Department of Energy is listed as the lead agency 
within the Administration's implementation plan for the 
national strategy for the Arctic region. You are also 
designated as a supporting agency for some other projects. So I 
will ask you, as I will ask others, what is your Department 
doing to further the budget request for the integration of 
Arctic issues?
    I know the DOE has actually been singled out as one of the 
few departments that has actually started to implement some of 
these initiatives, but I would ask you, very briefly, what DOE 
is doing to advance our Arctic issues through the lens of the 
budget?
    Secretary Moniz. Thank you. We are very committed to trying 
to advance the Arctic programs. I think I can say, even though 
it's not finished, in the QER, for example, one of the issues 
will be to emphasize collaborations with Canada as well in 
terms of looking at Arctic issues.
    We are preparing a ten year plan for renewables, for 
example. We are committed to getting at least five megawatts of 
solar deployed soon.
    I might go back and mention ARPA-E. Yesterday at the 
exhibit we saw many, many technologies that are appropriate for 
distributed generation in isolated communities to lower the 
extreme energy costs there. So on the technology front, we are 
pursuing that.
    Another thing is last year I charged the National Petroleum 
Council to deliver a report by the end of March that will look 
at what are the R and D needs that we should be addressing for 
the Arctic region, specifically around the hydrocarbon 
production possibilities there. In particular, looking at the 
environmental impacts, environmental stewardship, with 
production.
    We are also doing a lot of work in modeling. Clearly, 
global warming, as you know very well, is impacting Alaska. 
There are permafrost issues we have looked at together. So, I 
think, we have some specific programs going on in technology. 
And we have around both isolated villages and around the 
hydrocarbon future and we are deeply into several planning 
processes that will define the next program.
    The Chairman. I look forward to visiting with you on these 
items.
    The National Security Strategy that was released last week 
provides we must promote diversification of energy, fuels, 
sources and routes as well as encourage indigenous sources of 
energy supply. Greater energy security and independence within 
the Americas is central to these efforts.
    We have been talking a lot about energy independence, North 
American energy independence, and what that means with our 
friends to the south in Mexico and our friends to the north in 
Canada. Yet we see announcements, like we saw a couple weeks 
ago, where within our own borders we are putting off energy 
supply. Taking 22 million acres of great prospects for energy 
resource development completely offline, offshore and onshore, 
and done in the course of three days.
    I am going to be looking forward to really pushing this 
Administration when we're talking about how we work to provide 
for the national security aims, as set out in this 
Administration's own policy, when we're saying no to Keystone. 
We're shutting off Alaska. I want to make sure that this is 
meaningful and not just words on paper, so I want to focus a 
little bit more.
    My time is expired, and I want to give the courtesy to my 
colleagues here, but as we look to our oil exports to Canada, 
we have got about 455,000 barrels per day of exports to Canada. 
I am hoping that is part of that energy security and 
independence, and that the same would be afforded to Mexico. 
But that also, when it comes to our own resources within this 
country, we are not shutting them off as well. I am not giving 
you the opportunity to reply to that.
    Secretary Moniz. Alright.
    The Chairman. But know that this is a priority of mine.
    Secretary Moniz. Thank you. I'm happy to engage in the 
whole energy security discussion.
    The Chairman. I think we----
    Secretary Moniz. Which we are doing in the G7 context.
    The Chairman. We have had those conversations, and I want 
to continue them. I will turn to Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chairman.
    Mr. Secretary, you know we have had multiple conversations 
about the recurring events at Hanford. We have addressed this 
issue prior to your time, in 2004, and when we had incidents in 
2008 and 2010. So 2014 is the newest round of these incidents. 
Every few years we have concerns about worker safety and 
concerns that as the contractors roll over that we are starting 
again on making sure that we have implemented these kinds of 
reforms.
    I certainly appreciate your engagement on this, but I want 
to make sure that you continue to take control of the situation 
and that whatever is done under your leadership is actually 
institutionalized so that we don't have the same issues 
happening again. These incidents of exposure really are 
something we don't want to see again in the future.
    Specifically what is DOE doing to implement these new 
procedures and change things from business as usual to a regime 
that will last no matter who the contractor is?
    Secretary Moniz. Thank you. Well, first of all, as you know 
very well, with the latest round of incidents we put together, 
I think, a very, very high quality technical team which, I 
think, has brought some new insights. Now we have an 
implementation plan. We are already implementing much of it.
    We have directed the contractor to implement all of the 40 
plus recommendations. That will be in two phases. All of those 
that we can implement now, we will. There are some that will 
take, we estimate, about a two year period to get more 
information before we execute.
    In terms of the resource commitments to manage the vapors 
problem, we estimate at about $20 to $25 million in FY'15 and 
likely doubling, roughly, in FY'16.
    When it comes to institutionalization, my answer to that on 
any issue is perform. If one demonstrates high performance 
that's the best way to institutionalize something. So that's 
our goal.
    Senator Cantwell. What about fines or something of that 
nature?
    Secretary Moniz. Well, that may be part of a high 
performance culture. We want to perform. We are happy to be 
judged on how we perform in terms of implementing the 
recommendations that have now come forward for implementation. 
And again, I think if we succeed that will be the best way of 
institutionalizing the path forward.
    Senator Cantwell. Can I ask you about the Richland 
Operations Office? It was not funded as well as some of the 
other offices in the DOE complex, and it obviously has hit its 
milestones. The problem, obviously, with the Hanford budget 
overall is everybody always looks at it and thinks we can do 
with less. In reality, as you pointed out in your testimony, 
the complexity of the problem at Hanford is so great.
    The Richland Office is currently cleaning up two of the 
most radioactive parts of the Hanford site, buildings 324 and 
618, and ten burial grounds. What can you tell me about the 
timeline for the cleanup of these two specific sites, and what 
is going to be accomplished on these two projects in 2015?
    Secretary Moniz. Senator Cantwell, so first of all, as you 
said, and I'll just repeat that, of course, the overall site 
budget is increased in the request by roughly $100 million. The 
Richland part of that, certainly there have been a number of 
accomplishments. And so, we think the budget as requested will 
allow a strong program going forward.
    I'll have to get back to you on the specific timeline of 
that specific project. But I want to emphasize that with this 
budget we will get the plutonium finishing plant which has been 
judged to be, at one point it was the highest risk project, 
down to slab this year. We will be continuing to remediate 
ground water. So there's going to be a lot of--oh, we will 
continue the tremendous progress that's been made in opening up 
the river corridor. So we believe that FY'16 there will be 
very, very strong progress. We'll get back to you on that 
specific timeline.
    Senator Cantwell. Okay, and put in there, when will DOE 
meet the 2018 deadline for cleaning up the 618-10 and 618-11 
burial sites.
    We are obviously concerned about this reduction. And again, 
the priorities are so mammoth. We just want to make sure we are 
making progress.
    When I get to my next round I am definitely going to ask 
you about separating defense waste.
    The Chairman. Senator Cassidy.
    Senator Cassidy. Mr. Moniz, good morning.
    Secretary Moniz. Good morning.
    Senator Cassidy. You mentioned carbon capture 
sequestration. The Mississippi plant, in Kemper, Mississippi, I 
think that's 30 percent over cost. And so, I think, part of the 
issue is who should pay for that? Should that be the ratepayers 
or should that be the ARPA-E or someone else? It seems to be 
one of the questions behind carbon capture sequestration. What 
are your thoughts on that?
    Secretary Moniz. Well, the Kemper plant, of course, is a 
very, very ambitious plant which goes well beyond as a simple 
carbon capture plant. It is, first of all, capturing. Well, 
with its gasification approach it will be capturing roughly 
two-thirds of the carbon dioxide. But it is also a multi-
product plant, so it is producing CO<INF>2</INF> for enhancing 
oil recovery.
    Senator Cassidy. I totally get that, but who should pay for 
that because right now, frankly, it sounds more experimental. 
Does that make sense?
    Secretary Moniz. I wouldn't say experimental. Fundamentally 
the Department of Energy made a grant, early on, to help it get 
along. It's understood that that is capped in terms of the 
Federal contribution, and my understanding is that the cost 
overrun is being shared between ratepayers and Southern 
Company.
    Senator Cassidy. Okay. Now ARPA-E is funding Tesla, right? 
Did I see that was one of the projects that ARPA-E is funding? 
Tesla?
    Secretary Moniz. No, sir. Tesla was given a loan of roughly 
$500 million a few years ago which they have fully paid back 
many, many years ahead of schedule.
    Senator Cassidy. Okay. Still it seems like we are 
subsidizing. I presume that it is somewhat of a subsidized 
loan?
    Secretary Moniz. Well, all of our loan programs----
    Senator Cassidy. The fact that it is guaranteed they borrow 
at a lower rate, I presume.
    Secretary Moniz. Yes, the terms are generally good, at or 
slight increase to Treasury's. We certainly don't----
    Senator Cassidy. Well, I just said it to point that out. I 
never read about a movie star buying $100,000 Tesla and 
wondering why we are, you know, you seem like they are 
profitable on their own. I just make that point because the 
taxpayer who is in Louisiana, going to work in his pickup truck 
is effectively subsidizing the production of a $100,000 
vehicle.
    Secretary Moniz. Well, sir, first of all, getting this kind 
of an electric vehicle with a long range into the market is 
part of our job of pushing the technology envelope.
    Again, frankly, we made money on the loan to them. Indeed, 
and not a broadly known fact, is that in the 30 plus billion 
dollar loan portfolio the fees collected by the government 
already exceed the losses in the small number of loans that did 
not perform. So the portfolio has worked very well. We project 
there will be a $5 billion positive, in the black from the 
program.
    Senator Cassidy. Can I pause you just for a second? I don't 
mean to be rude, it's just I only have two minutes left or a 
minute thirty.
    I think I spoke about this with you when I was in the House 
last year, but you had given a lecture at MIT speaking about 
the future of the energy supply of the United States. I think 
you predicted that gas would fall off around 2060 as an energy 
supply, coal at some point, perhaps prior to that and then 
nuclear or other low CO<INF>2</INF> generation would take over 
after that. Do you still see that as the likely scenario?
    Secretary Moniz. I should clarify, in the scenario, of 
course, which was constrained by a substantial CO<INF>2</INF> 
reduction in that picture, not surprisingly, first coal and 
then gas without carbon capture would, of course, go down to 
meet the low carbon targets. That does not exclude any of the 
low carbon technologies including coal and gas with capture 
playing a role along with nuclear and renewables and demand 
side management.
    Senator Cassidy. So----
    Secretary Moniz. So, it's really, it's almost a tautology 
in the sense of if you--if the model requires a low carbon 
future you have to go to low carbon sources.
    Senator Cassidy. So in the President's Clean Energy plan, I 
think I've read that my state will cost $5.7 billion to comply 
with. Now I look at that $5.7 billion as basically forcing 
manufacturers overseas for anything that is energy intensive. 
Important, of course, because energy intensive industry is what 
creates jobs for blue collar workers.
    Do you see a problem with that? Do you see where I'm going 
with that?
    Secretary Moniz. Well, today the facts are that there's 
enormous construction in the Gulf. In fact the problem----
    Senator Cassidy. Well, absolutely, but somewhat in danger, 
potentially, by the rule that would require 40 percent 
reduction in CO<INF>2</INF> production from coal-fired plants.
    Secretary Moniz. We don't see, I mean, we don't see really 
the low carbon future as in any way being negatively impactful 
to the overall economy. We see continuing low prices, 
especially in the natural gas arena. And as you know that has 
been a major driver of what is happening in the Gulf region and 
elsewhere in terms of increased economic activity.
    Senator Cassidy. I am out of time, but I will finish by 
saying it does seem if you raise the cost of that energy 
production by these measures ultimately you increase the input 
and change the model so companies are more likely to move 
overseas. But I'm over time, so I must yield back.
    Secretary Moniz. I'd be happy to discuss that privately, 
but I would just add one thing, of course, that the other side 
of the equation is work on the demand side and higher energy 
efficiency including in our industrial processes. There's a lot 
of continued progress there as well.
    Senator Cassidy. Thank you.
    The Chairman. Let's go to Senator Manchin, and he will be 
followed by Senator Portman.
    Senator Manchin. Thank you, Madam Chairman. Mr. Secretary, 
thank you for being here again. We have had some great 
discussions. Dr. Cassidy brought up some things I am very much 
concerned with.
    I just want to get to the facts that we are dealing with. I 
have always said we are all entitled to our opinion, just not 
our own facts. The fact that we have right now is the United 
States of America continues to rely on fossil fuels for about 
68 percent, and it seems to be for the next 25 years that the 
EIA, your own division, estimates that to be factual.
    Reliability is a big factor with me. The reliability in the 
grid system, of what we have right now, can we maintain it? We 
came extremely close to having serious problems last year in 
the PJM system, with the polar vortex. And we are going to 
rely, I think that makes us about 32 percent coal up through 
2040 and 35 percent natural gas. I think these are your 
figures. Are you?
    Secretary Moniz. Yes. Just to clarify though, I believe is 
in what's called the business as usual scenario.
    Senator Manchin. Okay.
    Secretary Moniz. Yeah.
    Senator Manchin. And then it says in 2013 renewables 
provide about 13 percent. Renewables are providing about 13 
percent.
    Secretary Moniz. Again, in business as usual.
    Senator Manchin. And you're expecting that to go to 16 
percent, I guess business as usual, by 2040?
    Secretary Moniz. Yeah. Although again, with greater carbon 
constraints there's a good chance that will be higher, and 
certainly solar is going up very, very fast.
    Senator Manchin. Here is the thing that I have a question 
about in your budget request. It is before us right now. I 
think it has a request for $2.7 billion for energy efficiency 
and renewable energy, of that amount?
    Secretary Moniz. And sustainable transportation. So it's 
really three different programs.
    Senator Manchin. Okay, but only $560 million for fossil 
energy in research and development? The only thing I am saying 
is about a five to one ratio of what you are spending on the 
different forms of energy and actually what you are expecting 
those different energies to produce. Basically you want fossil 
or you expect fossil to give you five times more the energy to 
make the system run in America, to make the economy run in 
America, to keep the system in the grid alive. But you are 
putting all your eggs, it looks like, in a basket. I am not 
asking for a reversal, but I am asking for a level playing 
field.
    If you want us to do the job, help us find that technology 
that we are able to continue to produce the energy depended 
upon.
    As we know right now there are only two base loads, 
correct? Is that what we have? Gas is not quite a base load 
yet, but it will be, I think. It is getting there.
    Secretary Moniz. Yeah.
    Senator Manchin. Nukes and coal, 24/7, rain or shine, that 
is what you have got.
    With that being said, don't you think it is awfully dicey 
for us not to be moving further is what Dr. Cassidy said, to 
find that technology and not put the burden on? Because we do 
not have a commercial plant other than the Kemper plant coming 
on. One proven commercial plant as far as carbon capture 
sequestration.
    Secretary Moniz. Well, if I may comment. First of all, 
again, I think on the EERE budget it's a little bit artificial 
to compare that whole budget to the fossil number. Again, it's 
really practically three distinct programs.
    Senator Manchin. But it's not balanced.
    Secretary Moniz. Yeah, so it's not balanced, but so the 
renewables budget is about $600 million, I believe, something 
like that. Transportation around 800 and efficiency around a 
billion, roughly speaking, I think. That's the first point.
    Secondly, there's no question that, I mean, our job is to 
prepare for the future, as you said.
    Senator Manchin. Sure.
    Secretary Moniz. And that future is going to depend upon 
clean energy and lower carbon emissions. So therefore, we are 
doing all the above for that world. For coal, in particular, we 
have other parts of the agenda, but for coal the number one 
focus is around carbon capture utilization sequestration. The 
budget for that, as I have already indicated, has many features 
beyond that R and D budget.
    Secondly, there is also the ARPA-E budget which contributes 
to this.
    Third, there is the loan guarantee program.
    Fourth, there is the new tax incentive program proposed for 
Treasury, et cetera.
    So it's a--and the loan program is $8 billion for fossil 
technologies.
    Senator Manchin. It hasn't been--my time is running short. 
I just will say this. The facts of what we are dealing with 
right now. There is not another coal-fired plant being built or 
even in the planning stage of being built in America that I 
know of. You might have one or two somewhere, I don't know, but 
there is going to be 1200 being built around the world, 450 in 
India, 350 in China, and it goes on and on and on. And the 
bottom line, what I am saying is we should be the leader in 
technology. That is all I have said.
    Secretary Moniz. I think we will be, in particular, for 
lower carbon emission coal. And for example, I would note if 
one takes, I mean, you know, let's put it on the table.
    If you take the proposed EPA rule for new plants requiring 
sequestration. The demonstration plants that we are putting 
forward are really pushing the edge and they're 90 percent 
capture, et cetera.
    Senator Manchin. But they are not cost effective, not cost 
efficient.
    Secretary Moniz. If you--yes, but on the other hand, in the 
proposed EPA rule if you build an ultra super critical coal 
plant which is available.
    Senator Manchin. Sure.
    Secretary Moniz. It's only 30 percent capture required to 
meet that. So it's a whole different level of challenge to that 
coal plant. So I think this is a discussion we need to----
    Senator Manchin. We will continue. I know we have had it 
before. We will continue. I just think that it is unbalanced 
the way our Administration and country is approaching an 
inevitable. We are going to use it. We need it. We depend on 
it. Do you follow me?
    Secretary Moniz. Yeah.
    Senator Manchin. Why not be the leader in technology since 
the rest of the world is using it?
    Secretary Moniz. I agree with that.
    The Chairman. Senator Portman.
    Senator Portman. Thank you.
    I appreciate that dialogue and the one point that maybe is 
obvious to everyone is we have more coal in the ground than all 
those other countries that are continuing to develop coal-fired 
plants at a time when we've got the ability to take the 
leadership role in the technology. So I agree with my colleague 
from West Virginia. We ought to be taking advantage of that.
    Three questions quickly.
    First on energy efficiency. You were very helpful in the 
legislation that we worked on in the last few years together, 
pretty good at providing technical advice. We hope that you 
will continue to do that.
    Secretary Moniz. Absolutely.
    Senator Portman. Senator Shaheen and I are reintroducing a 
bill that has gone through this Committee twice, as you know, 
with a large vote within the next few weeks, and we are talking 
to your folks. But if you could, again, make a personal 
commitment to this, we would appreciate it.
    Secretary Moniz. We will support that efficiency bill in 
any way we can.
    Senator Portman. Excellent. As you know we happen to have a 
few little amendments on the Keystone bill. Though I am sure 
that will influence your thinking on that and convince the 
President to sign it.
    That's not a question. [Laughter.]
    Senator Hoeven. But an outstanding remark. [Laughter.]
    Senator Portman. Hoeven liked it. ACP, the American 
Centrifuge Project.
    You all had a report issued last year and I understand part 
of it was classified so I won't ask you to talk about that, but 
it was about alternatives. My understanding is it said that the 
centrifuge project going on now, in other words, developing 
these new centrifuge technologies is the right way to go and 
that we need them.
    Centrifuge technology, to be able to enrich uranium in this 
country. We only have one place we do it and that under our 
international treaties, as you have said in your previous 
testimony, we have to have a U.S. source for this. Can you talk 
a little about, to the extent you can, that report where we are 
on ACP?
    I noticed in the budget that you have $100 million 
dedicated to it for FY'2016. I also noticed that with regard to 
the international nonproliferation efforts that you continue to 
say that this is an important element to our strategy, to be 
able to tell other countries, look if you don't go down this 
route of enriching uranium, we can provide you enriched uranium 
for your peaceful purposes. Could you comment on that?
    Secretary Moniz. Yes. There are two different aspects I 
would emphasize.
    First of all the United States really has the strongest 
standards in terms of nonproliferation issues globally for the 
nuclear fuels cycle. And so, we do feel that having the United 
States companies engaged in that fuel cycle is very important 
for our nonproliferation aims. So that's one aspect.
    The second aspect is specifically for national security. We 
have two needs in particular. The nearest term one being 
tritium for our nuclear stockpile and then eventually AGU, for 
example, for our nuclear Navy.
    To do that, as you have said, we need to have American 
origin technology to produce the LEU from American origin 
uranium placed into an American reactor. So from that point of 
view the ACP, Advanced Centrifuge Project, is the technology at 
hand. So the $100 million is to maintain that as we are 
finishing up, over these next months, a very intensive, multi-
agency study on the exact needs, including schedule needs, to 
meet those national security obligations.
    Senator Portman. I appreciate that very much, and the 
report on tritium, I understand, is due out in April. I believe 
that will confirm what you are saying which is that we need to 
have this low grade, enriched uranium for tritium which is 
critical to our nuclear arsenal. We appreciate your continued 
support of ACP. I know taxpayers have already spent about $6 
billion toward this effort. I appreciate the fact that we are 
going to follow through on this and have this domestic source.
    Clean up. The Piketon plant used to use this gaseous 
diffusion model, and you all made a commitment to clean it up 
and do it in an accelerated way. Once again I am disappointed 
the budget does not keep that promise. If I look at the budget, 
I think it is $49 million below even what we did in Fiscal Year 
2015. This is a commitment the President made way back in 2008.
    I look at these sites in a very simple way. As you know, I 
was very involved in one of the sites, the Fernald site outside 
Cincinnati. But also look at what's happened at Rocky Flats and 
so on. To the extent you can continue this accelerated clean 
up.
    One, it is safer for the community, obviously.
    Second, you save the taxpayers billions of dollars. We 
believe we saved somewhere between $3 and $7 billion at Fernald 
alone in a bipartisan way supporting that, so I again have to 
express my concern about the fact that we are not getting the 
commitment here from the Administration.
    Again, I would like to reissue my invitation to you to come 
out to the site and see it. Extraordinary. Thanks for sending 
two of your senior officials out last year, but we have got to 
have this ability to clean up this site. As you know, we saved 
700 people from losing their jobs just before Christmas by----
    Secretary Moniz. Right.
    Senator Portman. At the last minute, again, figuring out 
some ways to move some funds around here on the hill through 
our appropriators. I appreciate them doing that, but a much 
better solution is to set a schedule and keep to it.
    Secretary Moniz. By the way, I might add that General Klotz 
was there, I think, last week in fact for a visit.
    Senator Portman. Thank you for sending him.
    Secretary Moniz. The request this year is roughly what the 
request was last year. And then, as you say, the Congress was 
able to add about $50 million to that. I would just add that 
the unresolved issue as well is the question of the uranium.
    Senator Portman. Fail.
    Secretary Moniz. And as you know we are, yes, and we are 
involved in some litigation right now. And we are in the middle 
of doing a new secretarial determination in terms of how much 
uranium we can barter to help support the clean up. So----
    Senator Portman. We would like that support, but we really, 
really need the support in the budget.
    Secretary Moniz. Yup.
    Senator Portman. Thank you, Mr. Secretary.
    Secretary Moniz. Thank you.
    The Chairman. We will now go to Senator Manchin. Just for 
clarification, there has been some discussion back here about 
the early bird rule.
    The early bird rule, as has been the norm or the practice 
here on the Energy Committee, has been based on who gets here 
first. As my list is right now, Senator Heinrich is next, 
followed by Senators Capito, Warren, Gardner, King, Daines, 
Stabenow, Barrasso, Hirono, Hoeven, Franken, Flake, and 
Sanders.
    So just to give members a heads up, that is how we are 
operating today. Given the lengthy list, I am going to 
encourage members to try to stick to their five minutes. 
Senator Heinrich.
    Senator Heinrich. Thank you very much. Mr. Secretary, I 
want to thank you again for coming out to the WIPP facility 
last August. That meant an enormous amount to the community and 
especially to the workers.
    You mentioned early in your testimony the goal of getting 
that facility working in terms of interim operations in about a 
year. I wanted to ask you a little more specifically what you 
think the Department's current best estimate is of when normal 
operations might resume at WIPP?
    Secretary Moniz. We are targeting 2018, but I have to admit 
that it remains a little bit uncertain. The key project is the 
new ventilation system.
    Senator Heinrich. Right.
    Secretary Moniz. And that is still undergoing engineering 
analysis. To give you an idea of the uncertainty, until the 
engineering analysis is completed, is going to be a less than 
$100 million project or a $300 million project, and we do not 
want to set numbers until we have confidence. We are moving 
towards the engineering design completion, and that will give 
us both a budget and a schedule of certainty. Our target is two 
years after, two plus years after.
    Senator Heinrich. I would just ask if you would please keep 
me posted in terms of as soon as we have some certainty.
    Secretary Moniz. Absolutely.
    Senator Heinrich. Of how we are going to move forward in 
terms of the ventilation, what that means after the subsequent 
schedule and if those schedules should slip at all if you can 
let me know as well that would be much appreciated.
    Secretary Moniz. Absolutely.
    Senator Heinrich. And thank you again for coming out for 
that. It was very important for that community.
    We have talked a little bit about base loads and the change 
in the utility and grid systems in this country. I want to ask 
you a little bit about grid tied energy storage.
    One, if you could talk a little bit about what some of the 
places in the budget that focuses on that, the priorities of 
the Department.
    Two, I wanted to ask you more of a policy question of what 
you see as the greatest impediments to more widespread and 
sooner deployment of some of those technologies, if you see 
that just as a cost curve issue or if there are some particular 
regulatory rate making or other policy issues that we can 
address that would move adoption along at a faster rate.
    Secretary Moniz. Interesting, yes. So on the storage, as 
you know, Senator Wyden a couple of years ago asked us to do a 
storage report which we did which we now are trying to 
implement.
    In the budget this year, first of all, in the Office of 
Electricity we have a 75 percent increase in our request. It's 
not a huge number. It's $21 million but very important both for 
technology, but also for system integration. How would you 
actually integrate it into the system?
    The--we also, of course, not for stationary applications so 
much, but in the EERE budget there's also about $100 million 
for battery development there. And there, of course, again in 
cost reduction has been very dramatic. So cost is certainly an 
issue, the cost performance curve is certainly an issue.
    I might also add ARPA-E has quite a bit of work in terms of 
batteries and new chemistries and of course, we have our hub 
which is based out of Argonne which, I think, is doing some 
terrific work, again, on advanced chemistries for lowering 
costs, higher energy density, et cetera.
    The other question you asked is very interesting, I think, 
about the regulatory side. It's not obviously an authority that 
we have.
    Senator Heinrich. Right.
    Secretary Moniz. It would be FERC and state commissions, 
but I think there's a theme about storage and other aspects in 
which we still don't have regulatory structures that value 
auxiliary services, if you like.
    Senator Heinrich. Right.
    Secretary Moniz. To the grid.
    Senator Heinrich. Conservation storage.
    Secretary Moniz. Capacity.
    Senator Heinrich. Yes.
    Secretary Moniz. Markets, et cetera. Storage is certainly 
one of them. So I think regulatory design, going forward, is 
going to be very, very important. And that would be something 
between FERC and the states.
    Senator Heinrich. Alright.
    Secretary Moniz. And NARUC is in town next week. You should 
talk with them.
    Senator Heinrich. We will follow up. Thank you very much, 
Secretary.
    Secretary Moniz. Thank you.
    The Chairman. Senator Capito.
    Senator Capito. Thank you, Madam Chairman, and thank you, 
Mr. Secretary, for being here with us today.
    Mr. Secretary, I know you understand the importance of the 
NATL to West Virginians and Pennsylvanians because of the 
unique role that they fill with the technology and also, it is 
the one facility, I think, that the Federal Government actually 
runs as opposed to being run by contractors. I was pleased 
yesterday that, I know you were asked about this in the House, 
and you mentioned because there have been rumors of 
consolidation which always is of great concern to those of us 
who represent the state.
    Secretary Moniz. The rumors are unchanged for years. 
[Laughter.]
    Senator Capito. Pardon?
    Secretary Moniz. The rumors are unchanged for years.
    Senator Capito. Unchanged for years. I am just double-
checking that it is just a rumor, so I appreciate that. I guess 
I am asking you, again, to repeat what you said yesterday in 
terms of, as far as you know, consolidation is not a----
    Secretary Moniz. Correct. In particular, as you implied, 
our laboratories are generally management and operating 
contracts. NATL is unique in being a Federal facility.
    Senator Capito. Right.
    Secretary Moniz. And that reflects two points. One is that 
it does do, let's call it, laboratory-based research.
    Senator Capito. Right.
    Secretary Moniz. But it also plays a major role in managing 
all the contracting for our fossil energy office and others. We 
have no intention of changing that arrangement.
    Senator Capito. Thank you. It is a major contributor to our 
economy too.
    Secretary Moniz. Right.
    Senator Capito. In the northern part of the state.
    Secretary Moniz. Also, you may know we are upgrading right 
now.
    Senator Capito. Yes.
    Secretary Moniz. The computational capacity at NATL.
    Senator Capito. Great. Great. Yesterday in the EPW hearing 
we had Janet McCabe from the EPA testifying on the carbon rules 
in the Administration, and the NSPS will mandate any new coal 
plants that have CCS technology. We have talked a little bit 
about this, and we all know that the technology is not yet 
perfected or commercially available.
    My question is are the various agencies, DOE, FERC and EPA, 
are you working through your budgets to make sure that you're 
coordinating this and putting great emphasis because for those 
of us more deeply affected there's a reliability of the grid 
issue, but also the continuation of the use of coal which is 
important to a lot of states in this country.
    Secretary Moniz. Yeah. If I may differ on one issue?
    Senator Capito. Yes.
    Secretary Moniz. And that is that the, actually, the 
capture technology, the standard capture technology which came 
out of the petrochemical industry, is commercially available 
and you can get a warranty on it. As with all of these 
technologies, carbon capture or renewables, my view is the goal 
of innovation, what we support in innovation, is in fact cost 
reduction across the board. That applies here as well. So----
    Senator Capito. But would you say the sequestration portion 
of CCS is commercially viable? I mean, I think that is where 
the rub is more, isn't it?
    Secretary Moniz. So yeah, carbon capture for sure.
    Senator Capito. Yes.
    Secretary Moniz. That technology is available. In terms of 
the sequestration side, of course, we are storing about 60 
megatons per year in enhanced oil recovery.
    Senator Capito. Right.
    Secretary Moniz. Most of that is natural CO<INF>2</INF> as 
opposed to captured CO<INF>2</INF>, but that is being done.
    The regulatory structures around commercial scale, saline 
aquifer sequestration are still in development.
    Senator Capito. Right, because we had the plant in the 
mountaineer plant in Mason County in West Virginia that they, 
the DOE, was very involved with, but basically walked away from 
it.
    Secretary Moniz. Right.
    Senator Capito. Because the sequestration issue was.
    Secretary Moniz. But that's where I believe the--see, most 
of our current demos and I believe in the EPA proposed rule the 
enhanced oil recovery can be used as the storage direction. And 
that's quite commonly done.
    Senator Capito. So, I guess my question----
    Secretary Moniz. In fact----
    Senator Capito. My base question is are you working in a 
coordinated way to make sure that the dollars that are put 
towards this are moving in the same direction?
    Secretary Moniz. Yes. Clearly we have the technology 
development part of that, but also for example, our people, you 
know, we're in the discussions to shape the Treasury proposal 
on the tax credits for carbon capture and sequestration.
    Senator Capito. Okay.
    Secretary Moniz. Yeah.
    Senator Capito. Quick question on the budget. It appears as 
though you're requesting a larger budget for coal CCS and power 
than has been in the past, but this increase, it appears to 
come at the expense of coal and moving more towards moving CCS 
toward natural gas. Is that a correct assessment of the 
direction that you're going?
    Secretary Moniz. Again, because in the coal plants, and in, 
I might say, also in other industrial facilities, refineries 
and cement plants and ethanol plants, we have a substantial 
portfolio of both pretty basic research for breakthrough 
technologies and for large demonstrations. In this budget we 
propose a pretty modest amount of money to start the planning 
towards a gas CCS pilot demonstration.
    Senator Capito. And that's a new direction?
    Secretary Moniz. That would be a new direction, right.
    Senator Capito. Okay. Thank you.
    Secretary Moniz. Yeah.
    The Chairman. Senator Warren.
    Senator Warren. Thank you, Madam Chairman.
    Mr. Secretary, we talk a lot about energy, and most people 
think of oil and gas and coal and solar and wind. But a huge 
part of our energy structure is the electric grid, the system 
we use to transmit electricity to our homes and businesses.
    Now our electrical grid has been so reliable that for the 
most part no one even thinks about it, but the grid is aging. 
The basic design elements of the grid date back to Thomas 
Edison, and major parts of today's grid were built right after 
World War II. One report indicates that utilities will need to 
spend between $1.5 and $2 trillion by 2030 just to maintain 
reliable electric service.
    Now, Mr. Secretary, your budget request includes what you 
call cross-cutting initiatives to improve the reliability and 
the resiliency of the grid. Could you walk us through these new 
initiatives and talk, just a little bit, about the Department's 
plans for improving the grid?
    Secretary Moniz. Yes, thank you, and of course not 
surprisingly this will be one of the major focus areas for the 
Quadrennial Energy Review that we hope to be discussing with 
you soon.
    So in the budget we propose $356 million for the grid and 
modernization initiative. It's a substantial increase because 
of the importance that we attach to it, as do you. The program, 
it's cross-cutting in the sense, in two senses, or maybe three 
senses.
    One is that within DOE there are multiple program offices 
that contribute in different ways to the project, the Office of 
Electricity and Reliability, of course, but also the Renewable 
Energy Office because of the integration issues, our Policy 
Office, et cetera.
    So the program will span everything from very fundamental 
technology development, like new wide band gap semiconductors 
for power electronics to system analyses. How do you integrate 
over large geographical areas?
    Senator Warren. So, let me ask just a little bit.
    Secretary Moniz. Yeah.
    Senator Warren. Let me push down on one part of that.
    Secretary Moniz. Sure.
    Senator Warren. One threat to the reliability of the grid 
is extreme weather.
    Secretary Moniz. Yes.
    Senator Warren. You know, heat waves make electric 
generation, transmission, distribution more difficult. They 
create potentials for brown outs and black outs. A recent 
report from the GAO focused on the risks that severe weather 
posed for our power grid, and the report goes on to say that 
two broad ways that we can reduce the impact of extreme weather 
on energy infrastructure is to invest in hardening and 
resiliency so we can harden the infrastructure by making 
physical changes so it stands up better to extreme weather, and 
we can make it more resilient by making changes so that it 
recovers more quickly when some components are damaged and 
damage to the external systems.
    Now a new study from the World Bank also suggests that when 
there's more diversity of energy sources, including more 
renewable energy connected to the grid, it will improve the 
resiliency of our electricity sector even in the face of 
weather extremes. And a Commonwealth of Massachusetts climate 
change adaptation report from 2011 also recommended 
diversifying energy supplies as a potential strategy to make 
our system less prone to failures.
    Can you explain a little bit to us about why that is and 
what DOE is doing here?
    Secretary Moniz. Yes. So, again, two different issues.
    One is the issue in terms of the high voltage transmission 
grid. And there, for example, using Recovery Act money we 
worked with the utilities to deploy at some scale a new 
technology called synchrophasors.
    Senator Warren. Sounds cool.
    Secretary Moniz. Yeah. So the idea--it is cool and it 
really gives you a lot of information about the status of the 
grid. The idea is we have to still work to get those data to 
become a decision making tool, real time, to prevent issues. 
But then if you go to the distribution end that's where, for 
example, distributed generation, that would include, for 
example, solar is a good example. Distributed generation and 
microgrids are themselves a resiliency tool.
    Senator Warren. Yes.
    Secretary Moniz. Okay? I'll give you one example where we 
actually did something concrete. Following Hurricane Sandy and 
of course, we have a lot of energy infrastructure that is 
coastal and susceptible to storm surges, et cetera. So in 
Hurricane Sandy, in the recovery, rather than trying to recover 
what we had, we spent a very small amount of money, cost-shared 
with New Jersey, to design a very substantial, so-called 
microgrid, not so micro. But a microgrid that would provide a 
resilience for a key, electrified transportation corridor so 
that even if the big grid was going out you might be able to 
isolate this. And of course, having a transportation corridor 
available is really important for public safety.
    Senator Warren. Good. Thank you, Mr. Secretary.
    The impact of extreme weather on the grid reliability is a 
problem for everybody who uses electricity, and we're facing 
more extreme weather events. As of this morning we are at more 
than 77 inches of snow in Boston.
    Senator King. I knew she was going to get to that.
    Senator Warren. You knew I was going to get to this, and 
that it's due to start snowing again this afternoon.
    These extreme weather events threaten our electricity 
infrastructure and make it even more important that we invest 
in upgrading and protecting the grid.
    Thank you, Madam Chairman.
    Secretary Moniz. I'll have a firsthand view of that snow 
this weekend.
    Senator Warren. I know you will.
    Secretary Moniz. And actually I just said that one of the 
contributing things here is the extraordinarily high 
temperature right now of the water around Boston is 
contributing a lot of the moisture.
    The Chairman. Let's go to Senator Gardner and then Senator 
King.
    Senator Gardner. Thank you, Madam Chairman. And thank you, 
Mr. Secretary, for being here today and the opportunity to 
discuss this.
    I, first of all, wanted to say thank you and talk about 
something that I've been working and will continue to work and 
pursue on this Committee and that's the matter of energy 
savings performance contracts. Looking at some of the work the 
Department of Energy has done over the years on energy savings 
performance contracts, I'll just point out one example from the 
National Renewable Energy Laboratories in Golden, Colorado 
where for $3.3 million worth of ESPC investment, the total 
savings to the Department of Energy to the federal taxpayer 
will be $12.6 million.
    Again, I think that highlights the work that we can do on 
energy savings performance contracts investing into energy 
efficiency and measures that reduce the amount of energy we 
consume and saving the taxpayer dollars. Now the problem, of 
course, with the Congressional Budget Office, in their wisdom, 
is only in Washington, DC. Can savings equal mandatory 
spending? I hope that you will work with me and others 
interested in this issue of the Army, whoever has been very 
diligent in pursuing billions of dollars worth of savings to 
the taxpayers will help me get the Congressional Budget Office 
to recognize savings when they see it. So, thank you for the 
work that you do, Secretary.
    Secretary Moniz. We'd be happy to support you on that. We 
are, I think, past to the $2 billion mark in terms of ESPCs and 
there's billions more to get.
    Senator Gardner. There is. Thank you very much for that.
    Speaking of the National Renewable Energy Laboratory in 
Golden, I just wanted to ask a few questions.
    As you know water is the lifeblood of the West. In Colorado 
it's an incredibly important resource. Energy production and 
water are closely linked.
    What do you see as the Department of Energy's role with 
respect to energy and water challenges and what priorities does 
the Department have in this area? Would you talk about ways 
that we can work together, perhaps, with NREL to highlight 
this?
    Secretary Moniz. So NREL has, in fact, been part of our 
laboratory team that has designed an energy/water nexus cross-
cutting initiative. We are proposing that in this budget for, I 
believe, it's $38 million. And of course, other agencies have 
lots of work in terms of the water arena, well, EPA and 
Interior and others.
    But we really have a special kind of focus on the energy 
for water issues, and that goes everywhere from advanced 
desalination technologies to system design, big modeling 
programs for integrating the energy and water systems. That's 
an area, actually, where NREL has been very, very helpful.
    We do have a substantial report that we published last year 
on this. And we'd be happy to supply that and discuss it with 
you, if you'd like.
    Senator Gardner. Very good.
    And maintaining the conversation, gearing it toward NREL. 
High performance computing data center, NREL, helped the lab 
earn a 2013 DOE sustainability award. How is the HPC data 
system being used today on grid infrastructure to get more 
natural gas and renewables on to the system?
    Secretary Moniz. First of all, the Peregrine, I believe 
it's called, computer at NREL--it's over at PetaFLOP and is by 
far, the largest computational engine for the kind of portfolio 
that NREL has. I don't know if you know, it's also had a very, 
very novel design for its energy usage which has been really, 
really, path breaking.
    Then in terms of your question. The model--first of all 
NREL has been very critical already, for example, something 
called the ReEDS Model came out of NREL. It is a standard tool 
used in the policy world, including our policy world, for 
looking at grid issues. So the issue is really to keep 
expanding that and looking at the interdependencies of 
infrastructures, gas and electricity being one of them, the IT 
system being another, with computational models that ultimately 
will allow us to integrate the new kinds of large databases we 
can get from sensors. Ultimately you'd like to be able to go 
to, kind of, distributed decision making capability so you can 
do real time addressing of any reliability issues, for example.
    Senator Gardner. Yeah, I would love to continue that 
conversation as well. Just a couple of quick questions before I 
run out of time here.
    Last week, I believe, or it was a few weeks ago, 
Christopher Smith, your Assistant Secretary for Fossil Energy 
at DOE testified on Senator Barrasso's bill, S. 33, the LNG 
Permitting Certainty and Transparency Act. He talked about how 
he believed that the Department would be able to comply with 
the 45 day timeline for approval under that bill.
    From your perspective and from a budget perspective have 
you included sufficient funding in this budget to ensure the 45 
day review of these LNG applications for final approval would 
be achieved under the bill, S. 33?
    Secretary Moniz. Oh, yes. First of all, I do want to--the 
prologue, of course, is that I think we're doing quite well 
already. But certainly with that bill, as Chris said, we 
believe we can work with those deadlines. And we think we have 
the resources to do that, yes.
    Senator Gardner. Thank you, Mr. Secretary.
    The Chairman. Thank you. I appreciate that confirmation, 
Mr. Secretary.
    Secretary Moniz. Okay.
    The Chairman. Senator King.
    Senator King. Thank you.
    First, Madam Chairman, I would like to say this is the 
first hearing I have been to since I have been here that I have 
heard sequestration spoken of positively. [Laughter.] So I 
appreciate that.
    Secretary Moniz. I'd be happy to speak about it negatively 
in the other sense.
    Senator King. That's the other--let's keep it on the 
positive.
    Secretary Moniz. Right.
    Senator King. Mr. Secretary, I have to complement you. I 
once heard an official in Washington characterized as being at 
the highest level where they still know anything. [Laughter.]
    You are above that level, but I don't think I've ever seen 
a witness with a better grasp of policy, but also the detail of 
the budget that you have exhibited here today. I really want to 
thank you, for what I am sure was significant preparation and 
work to grasp what is going on. That is the essence of 
leadership and I want to thank you for that.
    The second thing I want to say is I don't think your budget 
is big enough. I did some calculations. Your research and 
development, the sort of energy and science part, is about $10 
billion. That's one percent of our total discretionary budget. 
It's two-tenths of one percent of the total Federal spending.
    Just to give an example, the Federal support for the 
development of the fracking technology has produced benefits 
that are just immeasurable in terms of our society. Lower 
energy prices are enormously important. 21 percent of the 
average family budget goes to energy. A one dollar drop in the 
price of gasoline saves American taxpayers $138 billion a year. 
It's like a gigantic tax cut. It is over $1 billion a year in 
my state of Maine.
    So, I don't think we are spending enough on research and 
development, and all we've got to do is point to the experience 
of the support for fracking over 30 years which has brought us 
to this energy boom that we're enjoying today. The work you are 
doing with Tesla, for example, on batteries. The work you are 
doing on carbon sequestration. The work you are doing on base 
load research, storage, all of those are enormously important, 
way beyond the rather small level of Federal support.
    So put me down as saying let's keep going with the research 
and development. I think it is an essential Federal function 
that this Department has done well over the years.
    I am going to submit a series of questions for the record 
on things like offshore energy which I think is very important, 
wind and tidal.
    One thing I do want to touch on is nuclear waste storage. 
As you know we have been through a long period, 50, 60, 70 
years, of not figuring out what to do with nuclear waste. I 
understand there is a company based in Dallas, Waste Control 
Specialists, that is looking toward at least an intermediate 
level storage. That would be a big improvement.
    We have now got what amounts to 100 plus, high level, 
nuclear storage sites all over the country. One of which is in 
Maine, and we would like to get rid of that stuff. So I argue, 
is this a priority to work toward a high level waste storage 
facility?
    Secretary Moniz. Absolutely, it is a priority to work 
towards a whole nuclear waste disposal system. I might add, 
both, from the commercial nuclear power plants and from our own 
defense waste from the weapons program.
    The Chairman, Senator Murkowski, knows, in fact last year 
we worked together with this and the Appropriations Committee 
leadership to try to advance a particularly, an initial pilot 
storage facility. We remain convinced, actually, that moving in 
this direction of getting a storage facility out there, 
functioning, move fuel away from reactors, would be a very, 
very good first step. Even as we in parallel, work to develop 
the geological isolation capability that we will, that we 
absolutely need for the long term. So the answer is yes. 
[Laughter.]
    Senator King. Well, the other piece, don't forget about 
transportation and getting it there.
    Secretary Moniz. Oh, yes. Well----
    Senator King. Find a site, but we also have to figure out 
how to get it there and there is a lot of planning involved in 
that.
    Secretary Moniz. Right. And in fact, I was on the National 
Academy Committee, probably now ten years ago that did the 
study on the whole transportation system for nuclear waste. 
Another advantage, in my view, of getting that kind of storage 
facility going, whether it's a federal one which is what we had 
in mind or potentially this private sector approach, consent 
based process, number one.
    Number two, it will also exercise the transportation system 
which would be another major step forward.
    Senator King. I am out of time, but I have to ask one 
question that I think can get a one word answer. And that is, 
can you assure me that in your determination of the national 
interest when approving LNG exports that effect on consumer 
prices is a major factor?
    Secretary Moniz. Oh, yes.
    Senator King. Thank you and thank you, Madam Chairman.
    The Chairman. That was two words----
    Secretary Moniz. Sorry?
    The Chairman. That was two words, oh and yes.
    Secretary Moniz. Oh. [Laughter.]
    The Chairman. Senator Daines and then Senator Stabenow.
    Senator Daines. Thank you, Madam Chair, and thank you, 
Secretary Moniz, for being here this morning.
    I come from Montana, and when you think of Montana you 
probably might envision fly fishing and our----
    Secretary Moniz. I do.
    Senator Daines. Great national parks. The Yellowstone Park 
is about an hour from where I went to kindergarten through 
college. Glacier National Park, some of the great outdoors. In 
fact, I was fly fishing before Brad Pitt discovered it for the 
rest of the world in the famous movie, A River Runs Through It, 
which was filmed at the river I grew up, literally, fishing on.
    Montana is also known for coal. We have more recoverable 
coal than any state in the Union. It is very important for our 
economic future.
    I need to remind, I think, all of us that coal remains the 
single largest source of electricity supply in America. As a 
father of four children I sometimes wonder if we ought to give 
them their smart phones with a little sticker which says, 
``this device likely powered by coal'' on it, just as a 
reminder of the important role that coal does play in our 
energy supply?
    Tesla was mentioned earlier. Similarly, I wonder if we 
ought to have stickers on the back of Tesla automobiles that 
say, ``this electric automobile likely powered by coal'' just 
as a reminder of how important it is to our supply?
    I was out on the Crow Reservation recently. That 
reservation, they mine coal there. The unemployment rate on 
that reservation is 50 percent as we look at the poverty they 
are dealing with. It would be 90 percent without the coal 
mining jobs. They see a direct threat right now on their 
futures and livelihood as it relates to these regulations we 
are seeing, not coming from the DOE, but more so from the EPA. 
$120 million of tax revenues come from our coal industry in 
Montana that fund our teachers and our infrastructure. Again, 
it is really a significant foundation for our tax base in our 
state.
    In fact, Detroit Edison receives their electricity from 
coal from Montana. So our manufacturing base, in fact, a good 
friend, Senator Peters, newly elected from Michigan, explained 
the importance of low cost electricity to keep our 
manufacturing base of automobile industry there in Michigan.
    So that is the background, and I would like to talk a 
little bit about the clean coal technology portions we see 
there and what you are supporting in your budget. How much 
money does the DOE have in proposing and investing in the clean 
coal technologies? We look forward here now to ensuring we 
protect coal, but also continue to improve, produce, the clean 
production of coal.
    Secretary Moniz. Well, again, the fossil energy R and D 
budget is in the $500 million scale, a bit more than that. The 
vast majority of that is in coal research. As I've said the 
other investments like ARPA-E, a $30 million program, I believe 
if they ran on carbon capture technologies, advanced 
technologies.
    But again, as I've said before, we have an $8 billion 
active loan guarantee solicitation for fossil fuel technologies 
that lower emissions. And once again in this budget request, 
not ours, but in the Administration budget request out of 
Treasury, a $2 billion investment tax credit for anything 
related to carbon capture sequestration, including it could be 
for the infrastructure like CO<INF>2</INF> pipelines, et 
cetera, and an additional tax credit for sequestered carbon 
dioxide. So it's a pretty big program.
    Senator Daines. Yeah. I am going down the path here on the 
coal-fired plants, and I am aware that investment is going to 
be made in the R and D. How much of those dollars would be 
targeted towards helping, maybe, U.S. coal-fired operations 
verses assisting other countries, perhaps, like China and 
India?
    Secretary Moniz. Well it is all aimed at the United States. 
Now we do collaborate with China, for example.
    So, for example, we have a clean energy research center 
which has several dimensions. One of which is around coal. But 
so we, the United States, we spend $10 million a year on that 
program. That's spent in the United States.
    China matches that, and then both of those are matched by 
industry. So it's actually our $10 million is part of a $40 
million program, but we are supporting the American researchers 
in collaborative projects.
    Everything we're doing is--now we hope, of course, that 
ultimately there will be technologies that we may be able to 
put into an export market to create more jobs here. But we're 
focusing on the United States.
    Senator Daines. Alright.
    Secretary Moniz. If in terms of the carbon issue we all 
recognize that China is using three, three and a half times as 
much coal right now as we are.
    Senator Daines. And lastly, Madam Chairman, I am out of 
time, but in terms of the IP creator in this research. Who is 
going to control and own that IP?
    Secretary Moniz. We will--in that program, that 
collaborative program, we have a very, very, active IP program 
to make sure that we keep all of our fair share, certainly, of 
the IP. A lot of it is not IP rich, like sequestration stuff, 
but some is technology stuff. And then we have a very active 
program to control IP.
    Senator Daines. Alright.
    Thanks, Madam Chairman.
    The Chairman. Senator Stabenow.
    Senator Stabenow. Thank you, Madam Chairman, and welcome, 
Secretary Moniz.
    Secretary Moniz. Thank you.
    Senator Stabenow. First, a big thank you for your support 
of the funding levels for the nuclear physics programs. I know 
you mentioned Michigan State University and the Facility for 
Rare Isotope Beams, and that's a very important basic science 
project, as you know.
    Secretary Moniz. Yes, it is.
    Senator Stabenow. We are very proud of the effort that is 
going on there, and not only the science and the ability to 
compete globally that that will relate to, but also the jobs 
that are involved in that.
    Secretary Moniz. And great state support with that.
    Senator Stabenow. Yes, absolutely. It's been a wonderful 
partnership, public and private partnership, as are the other 
parts of the DOE budget as it relates to science.
    I just want to underscore the importance of that research 
innovation that you do in every area, including helping to 
bring things from a pilot to commercial stage which is where it 
is also so important that partnerships around loan guarantees 
and so on.
    A couple of questions because other colleagues, earlier, 
talked about making sure that we keep costs down for energy 
intensive manufacturers. Certainly in Michigan, I certainly 
agree with that. And one of the big things we're hearing about 
is to make sure that we move forward in a thoughtful way as it 
relates to natural gas.
    So, a boon thrust in America and I appreciate those that 
are in states with a lot of natural gas that they want to 
export. They want to get the best price that they can get. 
China will pay a whole lot more than the price right now in 
America, but if we look at American jobs and the fact that 
studies have shown that they're eight times more jobs created 
by keeping prices reasonable and keeping the jobs here, our 
energy intensive manufacturers that we need to thoughtful.
    I appreciate the fact that you have a balancing act to do. 
You are certainly moving forward on exports, but I also know 
that you have undertaken it to update the study in the 
Department regarding the impacts of increased or wide open LNG 
exports with no regard to the American economy.
    It is important that we make sure that American consumers 
and American manufacturers are benefitting from this great 
natural resource, and that we get the edge that we need in 
order to creating manufacturing jobs in America.
    I wonder if you might talk about the update of the study 
that you are undertaking and how it is going to evaluate the 
impact on costs for American consumers and American businesses.
    Secretary Moniz. Certainly. As I mentioned in response to 
Senator King's question, clearly, impact on domestic markets is 
very explicitly one of the criteria for the public interest 
determination. The--and so where we are, as we said last year 
when we put out our modified procedure.
    Senator Stabenow. Right.
    Secretary Moniz. Which I think has provided more clarity 
for the situation that we feel we have the analytical base for 
up to 12 billion cubic feet per day of exports. I might say 
that most of the independent economic analyses predict that we 
are unlikely to export more than around ten would be the 
standard, the most, the average at least projection. So we did 
commission studies which are due later on this year in terms of 
if we were to get beyond that kind of number what would be the 
economic impact to make sure we understand.
    The EIA does predict, certainly in the current range, very, 
very, very small impacts in terms of price and partly because 
when exports start and of course, we have no exports yet.
    Senator Stabenow. Right.
    Secretary Moniz. When they start the expectation is that 
for every unit exported the elasticity is that there would be 
about two-thirds of a unit additional production, so that would 
also keep a lid on any price increase.
    So anyway, we will just keep looking at this all the time. 
We're currently up to 5.7 authorized for export to non-FTA 
countries.
    Senator Stabenow. You would agree, though, that other 
countries are paying more than we are for natural gas? Last 
year China was paying $16.
    Secretary Moniz. Ah, yes. Although that has changed 
dramatically with the oil price drop because in general----
    Senator Stabenow. Sure.
    Secretary Moniz. These contracts are indexed to oil, and 
frankly that's another issue. We have seen, formally and 
informally, some withdrawals of consideration because right now 
the price structure is not adequate.
    Senator Stabenow. Right. A colleague of mine mentioned 
Detroit DTE Energy and their reliance on coal. I just also want 
to put a plug in that they are very aggressively moving toward 
wind. They have a wind farm in what we call the thumb of 
Michigan, and I encourage you to continue to focus on clean 
energy. There are 8000 parts in one of those big wind turbines, 
and those have to be manufactured by somebody. That is a lot of 
jobs, and we think we can manufacture one of those in Michigan 
but they can be manufactured across the country.
    In fact, a few years ago when I was in Alaska I went to a 
spot where there is wind, and they told me the wind turbine 
came from Michigan. So there are a lot of jobs there. So I 
would encourage you----
    Secretary Moniz. Great.
    Senator Stabenow. To continue to be focused. Thank you.
    Secretary Moniz. Also I'll just add on about manufacturing 
focus on composites, for example.
    Senator Stabenow. Absolutely.
    Secretary Moniz. Could lead to even larger blades and much 
more efficient turbines.
    Senator Stabenow. And we are glad to be involved in that as 
well.
    Secretary Moniz. Great.
    Senator Stabenow. Thanks.
    The Chairman. Let's go to Senator Barrasso and then Senator 
Hirono.
    Senator Barrasso. Thank you, Madam Chairman. Mr. Secretary, 
welcome back. Good to see you again.
    Secretary Moniz. Thank you.
    Senator Barrasso. Before I begin with a question I do want 
to thank you and your staff for working with me on the 
Barrasso/Heinrich, bipartisan LNG export bill. I was very 
encouraged by Assistant Secretary Smith's responses to our 
questions. As of yesterday we had six Democrat co-sponsors, six 
Republican co-sponsors, so I look forward to working again with 
you on this bipartisan bill.
    I would like to discuss crude oil, the crude oil market.
    Over the last several months OPEC has decided not to cut 
oil production. Many have speculated about the motives for 
this. Some say that Saudi Arabia and other OPEC members are 
trying to rein in Iran's nuclear ambitions. Others have stated 
OPEC is trying to encourage Vladimir Putin to abandon his 
support for Syria's President Assad. I am sure you have heard 
all the different theories behind this. Others say OPEC is 
trying to undermine America's crude oil production. Regardless 
of their motives, OPEC's decision has forced American oil 
producers to cut some investment and then lay off workers in 
states such as my state of Wyoming.
    Currently American producers are not allowed to export 
crude oil from the United States, so we have American producers 
who are not allowed to sell to Asia, to Europe, to Latin 
America, so American producers run out of customers. To me this 
is, obviously, hardships for folks in my state, but in other 
states as well. So in light of what is happening worldwide, 
isn't now as good time as any to lift this ban of exporting 
crude oil from the United States?
    Secretary Moniz. Well, Senator, as you know, that's, of 
course, in the Department of Commerce's jurisdiction. We do 
provide, kind of, technical support when requested.
    But a few points I will make without judging the answer to 
that question is one, first of all we are an enormous oil 
product exporter. We must be, I don't know, three and a half to 
four million barrels a day, something like that. Probably, I 
think we're net two and a half million barrels a day exporters 
now of product.
    That's an enormous change. It's almost a reversal of sign 
from a few years ago. So we are exporting, effectively, through 
products. We are also exporting things like natural gas 
liquids, you know, propane, et cetera.
    In terms of crude oil, the other perspective is that we are 
seven million barrel per day importers still of crude oil. So I 
think this question of exports also is to be taken on the 
context that we are actually enormous importers. I understand 
the next level of argument about matching refineries and this 
kind of issue.
    Senator Barrasso. The mismatch of refineries.
    Secretary Moniz. But those are the kinds of analyses that 
will be forthcoming.
    I will just mention one that the EIA did and published are 
around impacts on gasoline prices, and their conclusion was 
probably none to possibly minor decreases in domestic prices, 
largely because the gasoline price is indexed more to the Brent 
benchmark.
    Senator Barrasso. Have you been in touch with the Secretary 
of Commerce on this issue? As you said, it's in that 
jurisdiction.
    Secretary Moniz. Yes. So we have supplied a number of 
technical briefings in terms of processing. For example, I 
mean, of course as you know, the Secretary of Commerce did or 
the Department of Commerce did issue a clarification in terms 
of what lightly processed condensate was for export which I 
think provided some additional clarity to the companies.
    Senator Barrasso. In terms of communication I do want to 
switch to Keystone XL now. I know that your Department has been 
involved with issues related to the President and his making 
his decision that's been six and a half years for a 1.2 mile 
segment of pipe, essentially, crossing the border.
    Last Monday was the deadline for the Federal agencies to 
submit comments to the State Department on the Keystone XL 
pipeline, and I understand your agency did submit comments to 
the State Department. So would you publicly disclose what the 
Department's comments were to the State Department?
    Secretary Moniz. We did submit comments, Senator, but 
regrettably we just don't comment in terms of active decisional 
processes going on so I think the State Department would have 
to address that.
    Senator Barrasso. So the public is not entitled to the 
agency's comments? I want to know how this is consistent with 
the President's claim that this is the most transparent 
Administration in history.
    Secretary Moniz. Well again, I think it's quite 
conventional in active decisional processes where things can 
change. But again, the Department of State, I think, would have 
to be the one to do that.
    I mean, I can say that what we submitted certainly 
provided, I would say, up to date information of relevance to 
the decision.
    Senator Barrasso. But the Department is still going to 
withhold sharing with the public what that information may be? 
I mean, that's----
    Secretary Moniz. Yeah, that's our intent that we believe 
the State Department should control the information with regard 
to an active decision making process.
    Senator Barrasso. Thank you, Madam Chairman. Thank you, Mr. 
Secretary.
    Secretary Moniz. Thank you.
    The Chairman. Senator Hirono.
    Senator Hirono. Thank you, Madam Chair.
    Mr. Secretary, I want to thank your Department for your 
support for various projects in Hawaii. In fact while I was 
sitting here I was informed that there was a collaboration with 
your renewable energy lab and our electric utility, HECO.
    Secretary Moniz. Yes.
    Senator Hirono. And solar city basically that will result 
in our electric company being able to accept a lot more solar 
energy into the grid.
    Secretary Moniz. Yes.
    Senator Hirono. A big deal for Hawaii as we move toward our 
clean energy goals.
    I wanted to ask you a question about commercialization of 
new technology to get us to a clean energy economy. As you know 
there is an issue of as we support R and D and the technology 
to really get us to a clean energy future, the technology 
transfer aspects of it is a huge hurdle. And then you've heard 
of the valley of death where there's a lack of funding support 
to get from the research to the commercial scale of the 
research.
    So yesterday you announced a new Office of Technology 
Transfer with, albeit, modest funding of about $20 million, I 
believe. Can you explain how that new office will complement or 
enhance existing efforts in support of technology transfer and 
whether this office will be focused solely on national lab 
technology or will it also pay attention to initiatives that 
are in the private sector or that come out of universities?
    Secretary Moniz. Thank you. By the way, first of all, let 
me say that I was very pleased to sign the MOU to extend our 
collaboration with Hawaii.
    Senator Hirono. Thank you.
    Secretary Moniz. Just over a year ago. And Exxon might say 
Hawaii, it may not always be comfortable, but Hawaii as an 
island, set of islands, of course, provides a very, very good 
place also to look at the development of new technology 
integration.
    Senator Hirono. Very much so.
    Secretary Moniz. Yeah. On technology transfer, so yesterday 
we announced the Office of--actually we call it the Office of 
Technology Transitions. And the head of which will also be the 
statutorily required technology transfer coordinator for the 
Department. Over the last six months or so that role has been 
played by Dr. Ellen Williams, who this Committee moved to 
confirmation as ARPA-E Director last December. So we now have 
an acting director and are searching for a permanent director.
    In terms of the program, the Energy Policy Act of 2005 
called for establishment of a technology commercialization fund 
at 0.9 percent of the applied energy R and D programs. Up until 
now the Department has interpreted the cost shared CRADA 
agreements at our national laboratories as satisfying that 
requirement. What we are doing now is we are, of course, 
continuing that CRADA approach, Cooperative Research and 
Development Agreement, approach as a tech transfer approach. 
But we are, in fact, adding to it now the technology 
commercialization fund as I think it was asked for by the 
Congress.
    As you said that would be about $20 million. It will be 
used in a cost sharing way, a minimum of--well, the program 
design is still a bit of a work in progress, but at least 50 
percent cost sharing, focused on technologies that the 
Department, the development of which, the Department has 
funded. This will be a competitive program for getting grants 
out of that $20 million matching fund pot.
    Senator Hirono. So in other words at universities, for 
example, that have gotten some grants, they will be able to 
access this technology transfer?
    Secretary Moniz. I think we still need to get the design, 
but I hear your suggestion, and I think it's one that we will 
definitely look at.
    Senator Hirono. I appreciate it.
    Secretary Moniz. I have to admit, just thinking mainly of 
the laboratories, but it could be potentially DOE-sponsored 
work at universities.
    Senator Hirono. Yes. So they said there is a lot of work in 
this area.
    Secretary Moniz. Yup.
    Senator Hirono. Being done at universities.
    Secretary Moniz. It's a good suggestion.
    Senator Hirono. My time is running out, but I do want to 
focus on your new proposal for state energy reliability and 
assurance grants. I just wanted to know whether the intention 
of this new grant program which appears to be totaling about 
$60 million, again, a modest amount, whether the term reliable 
delivery of newer types of energy would also include 
intermittent renewables?
    Secretary Moniz. Oh, yes, for sure. I might just clarify 
that the $63 million is actually the sum of the two grant 
programs.
    Senator Hirono. Yes, I added it up.
    Secretary Moniz. Energy assurance and reliability. Yeah. 
Yeah.
    Senator Hirono. Alright. I think my time is up. Thank you.
    Secretary Moniz. Thank you.
    The Chairman. Thank you. Senator Flake.
    Senator Flake. Thank you, Madam Chairman.
    In the last couple of days we've seen a lot of attention 
about the President's upcoming cyber security conference at 
Stanford University. There are going to be a number of Federal 
agencies and tech companies involved. Noticeably absent has 
been the Department of Energy, although obviously, in the 
utility sector. This is an extremely important area with 
regards to cyber security. Was that an oversight? Will you be 
participating? Can you tell us about that?
    Secretary Moniz. Oh, yes. The Deputy Secretary, Sherwood-
Randall, is part of the program and she will be there tomorrow, 
in fact. And the Deputy Secretary, starting with Mr. Poneman, 
when he was Deputy Secretary, now Liz Sherwood-Randall, the 
Deputy Secretary chairs the ongoing group of utility executives 
that meets with us, I think, quarterly, to discuss cyber 
security. So it's a very strong program.
    All the feedback has been very, very positive from the 
industry, and indeed we have even taken the step of providing 
security clearances for a select number so that we can share 
some of the more sensitive information with them. The Deputy 
Secretary runs that and will be in the program tomorrow.
    Senator Flake. Alright. Good to hear.
    Earlier this week a rooftop solar company in Arizona called 
Stealth Solar admitted to illegally marketing services related 
to installation and leasing of rooftop solar systems. This 
issue appears to be gaining attention. I can tell you in 
Arizona a lot of these units there, as people now go to sell 
their homes, after entering into these long term agreements a 
lot are in for a surprise. Some have already received that 
surprise when they realize they have to pay off or have a lien 
put on their house.
    What role, if any, can or does DOE plan to play in ensuring 
that these companies, who access federal tax credits, in 
particular, and these incentives for rooftop solar systems 
aren't misrepresenting what they're doing for their customers?
    Secretary Moniz. Senator Flake, thank you for telling me 
about that. I was not aware of this. I don't know what 
certainly authorities we would have. I can't think that we 
would, but I think we should look into this and discuss with 
others in the government if there is a role for us to play or 
whether it's a purely state issue. We have been engaged, just 
in a convening sense, on issues like rooftop solar and some of 
the discussions about net metering, et cetera, but I wasn't 
aware of this issue.
    Senator Flake. Well, it is a big issue and a growing issue 
in Arizona. It is pretty competitive out there and the 
attractiveness in large measure is due to the Federal 
incentives that go along with these units, so I just wonder 
what role DOE plans to play. A lot of these programs----
    Secretary Moniz. At a minimum we'll try to understand the 
issue and be happy to get back to you with a discussion.
    Senator Flake. I greatly appreciate that.
    Secretary Moniz. Okay.
    Senator Flake. With regard to green building programs, some 
of those programs are run by DOE. GAO has done a study showing 
that we need to eliminate waste of taxpayer dollars in this 
regard. What is DOE doing in that regard concerning the green 
building programs that you administer?
    Secretary Moniz. Well we have a variety of those. Some of 
them, of course, are technology based in terms of new 
technologies. We also do convening programs which do not 
involve appreciable budget, like the Better Buildings 
Challenge. I don't know if they were referring to that or not.
    But in the Better Buildings Challenge there are, in 
particular, it's more businesses make commitments in terms of 
energy intensity reduction, typically 20 percent by 2020. What 
we do is we use our convening power, a certain branding, for 
the companies meeting these goals while they share best 
practices with others. But that's not a major budgetary issue 
so I'd have to look into that in more detail.
    Senator Flake. Specifically in 2011, GAO recommended that 
DOE, HUD and EPA lead an effort to collaborate with other 
agencies assessing the results of green building initiatives 
for the non-Federal sector. I think there are 17 such programs 
under your purview and there are 94 programs across 11 Federal 
agencies.
    So this is a problem. There has been a lot of waste 
identified by GAO, but it does not seem that the agencies are 
very excited about moving on the recommendations that have been 
made by GAO.
    Secretary Moniz. Okay, again, I'm not familiar with that 
2011 report, and we will look at it and get back to you.
    Senator Flake. Alright. I appreciate that.
    Secretary Moniz. The same answer.
    Senator Flake. Thank you much.
    Secretary Moniz. Thank you.
    The Chairman. Thank you.
    We will go to Senator Franken and then Senator Sanders.
    Senator Franken. Thank you, Madam Chair.
    I would like to talk a little bit about nuclear weapons and 
cost.
    According to the CBO the Administration's plans to operate, 
maintain and modernize U.S. nuclear forces will cost about $350 
billion over the next ten years. Credible studies have 
concluded that the Administration's plans for our nuclear 
arsenal will cost over $1 trillion over the next 30 years.
    What is worse is that CBO goes on to say that in its recent 
report that it's estimated the cost of the nuclear arsenal 
could grow if these programs see cost overruns, and that brings 
me to the part of the nuclear weapons budget for which your 
Department is responsible, the nuclear complex.
    One example of over spending is the B61 bomb modernization 
program. As I understand it the life extension program was 
supposed to cost $4 billion, and it's now looking to exceed 
$10.5 billion. This is only one example of a systemic problem 
of egregious cost overruns at NNSA.
    In fact for more than a decade and in numerous reports the 
GAO has consistently found that many of the National Nuclear 
Security Administration's major projects have experienced 
significant cost and schedule overruns. According to one of 
GAO's reports NNSA and NSA does not have and I quote, ``a sound 
basis for making decisions on how to most effectively manage 
this portfolio of projects and other programs and lacks 
information that could help justify future budget requests or 
target cost savings opportunities.''
    Secretary Moniz, as I indicated we're on a path to spend $1 
trillion over the next 30 years on our nuclear arsenal. I don't 
believe that we should be doing that nor do I believe that we 
will spend that much money and at some point we'll make a 
course correction and have wasted a lot of money. And these 
cost overruns are only making problems worse.
    What are you doing to address these cost overruns and these 
skyrocketing costs?
    Secretary Moniz. Obviously I'm not going to get into nor do 
I have responsibility for the bigger policy issue as opposed to 
our responsibility for maintaining the deterrent that we have, 
even has its trinks.
    Senator Franken. But there have been a lot of cost overruns 
and----
    Secretary Moniz. Right. So now on the projects, let me 
first just note a fact that the, including for NNSA, the GAO 
has taken us off of the high risk list for projects below $750 
million. Frankly, in the Department as a whole, especially in 
NNSA and environmental management, there's about a half of 
dozen projects that are in the multibillion dollar stage where 
there have been issues, shall we say.
    Now part of that is that the cost overruns are measured 
against baseline numbers that were put out long before they 
should have been, long before real engineering design was 
available. These are all unique projects. There's no baseline 
of experience to compare with. And one of the issues is there 
has to be better discipline in not putting out numbers that 
just have no grounding in reality.
    Now, what have we done? We have just made a major change 
after over a year of work by a very senior team in terms of 
changing our project management approach across the entire 
Department including the NNSA. There are many features of it.
    One is we took the successful principles that have been 
applied in the Office of Science which has built many 
multibillion dollar projects, generally very successfully. We 
have taken those principles. It starts with things that sound 
simple, a clear project owner, who has his or her budget at 
risk in a non-performing world. And there are a few others. So 
we've put those in place across the board.
    Secondly, above the Under Secretaries we have had something 
called the Energy Systems Acquisition Advisory Board, ESAAB. It 
has been a completely episodic event where this group gets 
together whenever there's a decision to be made on some 
project, but no continuing situational awareness of what's 
going on. That's changed.
    The Deputy Secretary will chair that. It will meet a 
minimum of quarterly for projects above $100 million. It has 
another group now established under it, a project risk 
management committee that will be meeting every two weeks which 
contains senior project people from across the Department, 
including my own, kind of, senior advisor on finance, et 
cetera, et cetera.
    So they have started operating. It's a new system. We will 
insist upon discipline in terms of base lining costs so that if 
it's an overrun, it's going to be an overrun or an under run 
against a real baseline number and not some number that was put 
out there with no, frankly, almost no basis.
    Senator Franken. I'm way over my time, and that's because 
you gave an answer.
    The Chairman. Senator Franken, we are going to have to move 
on.
    Senator Franken. Yeah, I just want to say that I will 
submit--I was acknowledging that. I want to submit----
    The Chairman. You have been very patient, and I appreciate 
that.
    Senator Franken. Haven't I?
    The Chairman. Yes, you have.
    Senator Franken. So I just want to say I am going to submit 
for the record some questions on the MOX plant in South 
Carolina. This is an issue which really--we are talking about 
spending a ridiculous amount of money, as far as I am 
concerned, on upgrading our nuclear arsenal. I know that the 
Secretary is not responsible for the overarching program.
    Thank you.
    The Chairman. Thank you.
    Secretary Moniz. We did note the problem.
    The Chairman. I know that was an issue Senator Scott was 
really focused on when he was on the Committee as well, so 
thank you.
    I promised Senator Sanders he would go next, followed by 
Senator Risch.
    Senator Sanders. Good. Thank you, Madam Chairman.
    Mr. Secretary, thank you very much for the excellent job 
that you are doing. And Vermont is very proud----
    Secretary Moniz. Thank you.
    Senator Sanders. Of having a wonderful working relationship 
with you and Secretary Chu before you. And we appreciate the 
work you're doing covering enormously important areas for our 
country and for the world.
    Mr. Secretary, I happen to be one of those who believes in 
science. I know it's a radical idea, but what the heck. I 
happen to think that the scientific community is right in 
telling us that climate change is real.
    It is caused by human activity. It is already causing 
devastating problems in our country and around the world, and 
we need to transform our energy system away from fossil fuel. I 
know that view is not unanimously agreed to by members of the 
Committee. That is my view.
    Secretary Moniz. I agree with you.
    Senator Sanders. Okay, I appreciate that.
    Very briefly, tell us what you and I know the President 
agrees with that. Tell us what your agency is doing, in fact, 
in trying to have the United States lead the world in terms of 
reversing the devastating problems we face through climate 
change?
    Secretary Moniz. Well, fundamentally it's following the 
President's Climate Action Plan and its three pillars.
    So one is the mitigation through decreased greenhouse gas 
emissions and there, without going into all the details, 
clearly, our clean technology development programs and our 
efficiency programs are the heart of, what I think, is going to 
be the solution.
    Senator Sanders. I agree. Now in terms of energy efficiency 
and weatherization I represent the state which has a whole lot 
of older homes and older buildings. We have already received 
very helpful grants from the DOE in which we have cut emissions 
by 30, 40, 50 percent and cut people's fuel bills by 30, 40, 50 
percent.
    Would you agree with me that it is eminently sensible to 
make a massive investment in weatherization so people can save 
money on their fuel bills and we cut carbon? And that in a few 
years time people can repay the loans or the cost of the 
program? Does that make sense?
    Secretary Moniz. Absolutely, and enhance comfort at the 
same time.
    Senator Sanders. Exactly.
    Secretary Moniz. Yeah.
    Senator Sanders. I understand you have financial 
constraints, but one of the issues that I have always believed 
in is making sure that people who don't have a lot of money are 
able to receive loans or grants and they can repay it on the 
bill financing concept. Does that make sense to you?
    Secretary Moniz. Absolutely. I think there's an enormous 
return, again, and certainly helping the less well off is 
important in so many dimensions.
    Senator Sanders. I know there are financial limitations to 
what you and every other agency can spend, but are we investing 
enough, frankly, in weatherization in this country?
    Secretary Moniz. Well we did request in this budget, I 
don't remember the numbers exactly, but I think we asked for an 
increase of $40 or $50 million. Maybe one of my----
    Senator Sanders. $40 or $50 million?
    Secretary Moniz. Increase, an increase up to 230 something 
I seem to remember?
    Senator Sanders. Whatever.
    Secretary Moniz. Somebody?
    Senator Sanders. Between you and me----
    Secretary Moniz. But anyway, but there's an enormous need, 
of course, and----
    Senator Sanders. It would seem to me that we should be 
investing a heck of a lot more because this is going to pay for 
itself.
    Secretary Moniz. Yeah.
    Senator Sanders. It's going to create jobs. It's going to 
lower fuel bills, cut carbon emissions. It is a win/win/win 
situation. Do you agree?
    Secretary Moniz. Yes, and again and help families and 
their----
    Senator Sanders. Exactly. Exactly.
    Secretary Moniz. Right.
    Senator Sanders. Let me ask you this. Some of my friends 
have noted this or that problem in terms of sustainable energy 
projects or concerns about loans to Tesla, et cetera. Is it my 
understanding that in fact we provide in this country today, 
over a ten year period, about $100 billion in subsidies to the 
fossil fuel industry? Does that sound right to you?
    Secretary Moniz. I really could not give a sound answer to 
that.
    Senator Sanders. Alright. Let me ask you this one.
    Secretary Moniz. Yeah.
    Senator Sanders. My friends, often some of my colleagues, 
talk about nuclear energy as being something that we should 
radically advance or move forward on. Is it true that without 
the Price-Anderson program, which basically says to the nuclear 
industry that God forbid there's ever a nuclear disaster in 
this country that taxpayers, depending on the nature of the 
disaster, would pick up a substantial part of the liability? 
That without that program the nuclear industry would not be 
able to function?
    Secretary Moniz. Well, I think it's a little bit more 
complicated in a sense that the industry, the individual 
utilities are required----
    Senator Sanders. To pay a certain amount.
    Secretary Moniz. To have a few hundred million dollars of 
insurance.
    Senator Sanders. But why aren't they going to Wall Street? 
Why aren't my friends who are--well, believe in the private 
sector? Why don't----
    Secretary Moniz. And then what is unique as well in Price 
Anderson is that then all the nuclear operators must self 
insure up to roughly $10 billion.
    Senator Sanders. Right.
    Secretary Moniz. And the total judgments for public impact 
of nuclear power over its history, the last I knew, it was 
about $200 million over all those years.
    Senator Sanders. The truth is if God forbid----
    Secretary Moniz. Yeah.
    Senator Sanders. If there were ever a disaster, Fukushima, 
in this country, the taxpayers would have to pick up, depending 
on the nature of the disaster, a substantial part of that cost.
    Secretary Moniz. Well,----
    Senator Sanders. That is true.
    Secretary Moniz. If it were above $10 billion----
    Senator Sanders. Yeah.
    Secretary Moniz. For one event, correct.
    Senator Sanders. That's right. That's right.
    Secretary Moniz. Right.
    Senator Sanders. And so my only concern is that I say to my 
friends who always want to get the Government out of this or 
that. Do you want to support getting the Government out of 
Price Anderson in the nuclear industry?
    Let's work together on it. I don't think I am going to have 
too many takers on that. Point being, the Government does play 
a role in various forms of technology and energy.
    Thanks.
    The Chairman. Let's go to Senator Risch then Senator 
Hoeven.
    Senator Risch. Thank you very much.
    Mr. Secretary, as you might guess I come at this a little 
different, from a different perspective, than Senator Sanders. 
You were so good to visit the nation's lead nuclear energy 
laboratory in Idaho Falls. People are still talking about that. 
We certainly appreciate your visit, and we look forward to 
continuing to do great things there.
    One of the issues, of course, is the clean up there. We 
know that it was really unfortunate that WIPP had the problem 
that it had, a view of outline here for us here today, a 
timeline for getting WIPP up and running. I think we should all 
be pulling a wagon in the same direction on that.
    One of the questions I have for you is once that gets up 
and running there is going to be, I think, a bottleneck of 
trying to get things in there. For instance, in Idaho we 
continue to process and the workers do a great job of doing 
that. They have got 473 packages ready to go.
    This probably drove them a little deeper than where you are 
so you may want to take this for the record, but what can we 
anticipate as far as shipments? How are they going to 
prioritize shipments that go into WIPP once it opens back up? 
Because we do have these backed up and there's obviously going 
to be more by the time we get there.
    Secretary Moniz. Yes, Senator Risch, I really don't have a 
detailed answer to that right now because one doesn't exist, to 
be honest. We're going to have to work through our 
prioritization. Work with our stakeholders to see how we'll do 
this.
    There is one other possibility to help, of course, as you 
know, we had started to use a commercial site in Texas as, kind 
of, a relief valve. That's also been stopped for the moment, 
but maybe that will also revive, to help that. But we'll have 
to work that through I think when we have a clearer idea of 
when we can actually start shipments.
    Senator Risch. I appreciate that, and I appreciate that 
this is on your radar screen. It is important to all of us, and 
I think everybody is working in good faith to try to get this 
done so we can move forward.
    Again, we sincerely appreciate that. Those people do a 
great job out there with the contractors with what they are 
doing for all of us, for Idaho, for the DOE, for America.
    Secretary Moniz. Yes.
    Senator Risch. I want to talk just a minute about the 
electric grid. It was raised here in the hearing by Senator 
Warren. I come at it from just a little different aspect. She 
was concerned about weather and the fiscal security.
    As you and I know there are other threats to the grid. Some 
of it is classified so we can't talk about it here, but some of 
it we can.
    As you know Idaho has been, really, on the cutting edge of 
that. I hope you will keep that in mind as we move forward 
because clearly there has been identified by Senator Warren, by 
virtually everyone, that the grid is a real vulnerability of 
America, particularly in the cyber aspects of it.
    You had the opportunity to look at that in Idaho. You know 
what we're doing there. And again, those people out there are 
really on the cutting edge and doing great things.
    Let me just close with this.
    Secretary Moniz. May I say, including the DHS facility, 
yeah. Yeah.
    Senator Risch. Right, exactly.
    Let me close with this. I appreciated your answer to 
Senator Franken about the issues regarding our nuclear 
inventory. Those are absolutely critical to America. No one 
wants to spend money on it, but because of the world the way it 
is today, we have to.
    I will look forward to hearing from you in a classified 
setting a little more detail in how you are going about what 
you generally described here because that is really critical 
for America and for America's security. So thank you for what 
you are doing there.
    Thank you for recognizing the issues and the dollars and 
cents are huge when you are dealing with that, and thank you 
for generating what we hope will be a real pragmatic approach 
to this and how we are going to get this done and do it as 
effectively and reasonably cost effective as possible.
    Secretary Moniz. We can certainly arrange that classified 
briefing for you and maybe other colleagues, if they'd like, if 
they're interested in the broader----
    Senator Risch. Yeah. There are many other colleagues, my 
colleagues----
    Secretary Moniz. Nuclear security issues.
    Senator Risch. Right. There are many of my colleagues who 
are interested in that, some of whom are on this Committee, but 
some are also on other Committees that I sit on. My time is up 
and I thank you.
    Secretary Moniz. Great, thank you.
    The Chairman. Senator Hoeven.
    Senator Hoeven. Thanks, Madam Chairman.
    Secretary Moniz, thanks for being here. Thanks for your 
good work.
    I want to echo Senator Risch's comments. Your visit to our 
state was much appreciated, and I think was very good, very 
valuable. Thank you for that.
    Secretary Moniz. I was pleased actually to visit all of the 
states of the members here.
    Senator Hoeven. Well it is important, and we appreciate how 
you have approached that.
    First question, and this may have come up with Senator 
Barrasso, but he is a primary sponsor in the LNG Permitting 
Certainty and Transparency Act. I am also a sponsor on that 
bill. It would require approval or it would require a decision 
by the DOE within 45 days from approval of the environmental 
impact statement on an application for LNG export.
    As you know, you and I have had negotiations of this issue 
which I appreciate. Do you feel we have got that in a format 
that is workable?
    Secretary Moniz. Yeah, as we've described, I mean, I think 
we're doing a good job but with the parameters put forward. We 
can work with those dates.
    Senator Hoeven. Thank you.
    The second question I have is about the Advanced Fossil 
Energy Loan Guarantee Program. You have got some outstanding 
applications to do some exciting things with utilizing natural 
gas. Of course, we are flaring off a lot of natural gas.
    Secretary Moniz. I'm surprised you used the plural. 
[Laughter.]
    Senator Hoeven. Well, I want to be fair.
    I am just wondering how that is progressing and do you feel 
you are getting close to another round of approvals? And if so, 
when?
    Secretary Moniz. Well, yes.
    First of all, we do feel we have, for the $8 billion fossil 
program, in particular, although as well as the other programs, 
we feel we have a very good proposal stream. We cannot discuss 
any, of course, individual proposal. I would just say that, of 
course, as you well know, one of them that you may have in mind 
has certainly gone to the financial part of the discussion, to 
part two. Yeah. And so we're moving along a whole bunch of our 
proposals.
    Senator Hoeven. I think that is a program where we are 
doing some exciting things in terms of, as you said, your core 
mission of technology development. I appreciate that, and I 
appreciate working with you on it.
    The last point I want to go to is are you aware----
    Secretary Moniz. May I just--I'm sorry, Senator, just 
interrupt you to say that for any of our projects, once they 
have gone to part two it means they have passed the threshold 
test on the technology side.
    Senator Hoeven. Good, yeah, thank you.
    Are you aware of the Shell Company's Quest project in the 
oil sands and the Exxon's Kearl project in the oil sands? Both 
of them are projects that are investing billions to reduce 
greenhouse gas emissions associated with producing oil from the 
oil sands. Are you familiar with those?
    Secretary Moniz. No, I am not actually.
    Senator Hoeven. In both cases I see they are making huge 
investments in carbon capture and storage technology. In fact 
in the case of Quest, by the end of this year they will be 
storing a million tons a year of CO<INF>2</INF> which they will 
pipe further north and store in rock formations.
    Isn't that exactly the kind of investment in technology 
that is going to help us get carbon capture and storage or 
sequestration to a commercially viable point? Both Senator 
Manchin and Senator Capito pressed you on this issue. The key 
is yes, we can do CCS on a technologically feasible basis, but 
we have got to get it to a commercially viable basis.
    You said driving down the cost is your number one 
parameter. Here are projects that are investing hundreds of 
millions and billions along with the Province of Alberta and 
the Canadian Federal Government with huge private investments 
in CCS. Isn't that the kind of thing that can help us drive 
this technology forward?
    Secretary Moniz. Sure. Again, I don't know these particular 
projects, but absolutely. We're CCS across the board, we think, 
is really, really important. And I might add there is a little 
facility in North Dakota, I think it is, that has sent 20 
megatons of CO<INF>2</INF> into Canada for enhanced recovery.
    Senator Hoeven: Exactly. The Dakota Gasification Company 
and DOE was an integral part of developing that.
    Secretary Moniz. Correct.
    Senator Hoeven. I would like to get to your people the 
Quest and the Kearl which are Shell and Exxon's projects so 
you----
    Secretary Moniz. Please do.
    Senator Hoeven. So you can see how important it is in terms 
of developing CCS.
    Secretary Moniz. Yes.
    Senator Hoeven. Which is what you want to do.
    Secretary Moniz. Terrific. In fact the person in our 
office, Julio Friedmann, is the expert in this area. I'll bet 
he knows about them, but----
    Senator Hoeven. Well, I would really like to take----
    Secretary Moniz. Yup.
    Senator Hoeven. Like you to take a look because I 
understand from your earlier comments to Senator Barrasso that 
you were not going to comment on Keystone internal 
deliberations, which I understand. You and I have talked about 
that issue many times. But I think it would be good for you to 
take a look at this project.
    Secretary Moniz. I would be happy to.
    Senator Hoeven. I think you will be impressed.
    Secretary Moniz. Okay. Alright.
    Senator Hoeven. Thanks, Mr. Secretary.
    Secretary Moniz. Yup, you bet, yup.
    Senator Hoeven. Great.
    The Chairman. Mr. Secretary, thank you. You have been very 
generous with your time. It has been almost two and a half 
hours you have been sitting here.
    I want to echo the comments, I believe it was of Senator 
King. Clearly this is not something where you studied up 
quickly to come before the Committee to speak to the 
President's priorities within your budget. You know the details 
in and out of what is happening within DOE. I think that this 
is reflected in your responses to our questions, and I would 
like to express my appreciation for how prepared you have come 
to this hearing.
    Secretary Moniz. Thank you.
    The Chairman. I will be submitting some additional 
questions for the record, but I do think that given the fact 
that we had pretty robust participation here at the Committee, 
we have gotten to hear some responses in a host of different 
areas. I will ask one more question while we still have you 
here, and that relates to the critical minerals strategy.
    Back in 2010 and in 2011, DOE released a report on the 
critical minerals strategy within the country. We talked a lot 
about our dependence on foreign sources for oil. I think we 
recognize that when it comes to our critical minerals we have 
that same dependency, and with many of these important minerals 
it is clearly a dependence that leads to a vulnerability.
    I was listening to the comments from the Senator from 
Montana saying the Tesla needs to have a little bumper sticker 
that says ``this may be powered by coal'' and your kid's iPhone 
should have the same sticker that says ``this may be powered by 
coal.'' I think it is very clear that all of it is powered by 
some form of critical mineral and the priority that we place on 
that, again, accessing these within our own country where we do 
have resources is important.
    So, the question to you is whether or not DOE is looking at 
updating any of the analysis that you have done, now three 
years back? Is that something that is on the books for 
consideration?
    Secretary Moniz. Not that I know of, but I can look at 
that.
    The Chairman. Can you look at that?
    Secretary Moniz. And we could consider it, of course.
    The Chairman. Thank you.
    Secretary Moniz. The issue of critical minerals also goes 
into the things like rare earths.
    The Chairman. Right.
    Secretary Moniz. That go into so many technologies, et 
cetera. On that one we did form the Hub out in Iowa which I 
think is doing extremely well. I think that perspective is both 
to produce the minerals, but it's also when can you, if they're 
very critical, when can you replace them by something else?
    The Chairman. Yes.
    Secretary Moniz. Can you recycle them more, et cetera. So 
those are all interesting.
    The Chairman. Yes.
    Secretary Moniz. We could look at that and see.
    The Chairman. Good.
    Secretary Moniz. And if that's something you're interested 
in we could have a refresh.
    The Chairman. I would like to do that.
    Secretary Moniz. Okay.
    The Chairman. We are going to do that.
    I will also be submitting a question to you about methane 
hydrates. This has been an area where we have seen the interest 
from DOE's perspective surge and then wane over the years. I 
think this is an area that has enormous potential for us. 
Better understanding our methane hydrates is something that I 
would like to do.
    Secretary Moniz. I'd be happy to discuss that.
    The Chairman. I did have a question on the long term 
mercury storage facility. We had posed a series of questions to 
you, Senator Heller and I, last year. As I was going through my 
homework last night I actually came across a letter from you 
that speaks just exactly to this and where we are with the 
storage facility. So I will look forward to following up----
    Secretary Moniz. Good.
    The Chairman. A little bit more with you on that.
    Secretary Moniz. Excellent.
    The Chairman. There are some other questions you will be 
seeing from me.
    Secretary Moniz. Okay.
    The Chairman. I will turn to our Ranking Member, and we 
will conclude the hearing.
    Senator Cantwell. Thank you, Madam Chairman.
    Again, I want to add my thanks for your appearance here 
today and details for the budget itself. I think it is a 
forward looking perspective to our energy needs, and I thank 
you for that.
    As some of my colleagues have mentioned they might do more, 
it reminds me of a few years ago when some of the leaders of 
industry, Bill Gates and the CEO of Cummings, came to all of us 
and said that we should increase ARPA-E even more. I think it 
is a valid point that we could be discussing this in this 
budget overall.
    I am going to submit a question for the record as it 
relates to the WIPP, the Vit plant and the natural gas 
pipeline. I think there have been some issues there about 
postponing the EIS.
    Secretary Moniz. Oh.
    Senator Cantwell. So I am going to submit something for the 
record, and if you could respond to that, about the timing of 
that, that would be quite helpful.
    You mentioned visits to people's states. We very much 
appreciate that and want to offer, if you want, to come out and 
look at the various science, no, human science studies that are 
being done in the Northwest, various activities. We would 
appreciate that.
    I wanted to get a sense of the DOE role. You had a major 
role in the Human Genome Project. What are you thinking about 
the brain and precision medicine efforts and what DOE might 
contribute to that? That is why we welcome you to visit the 
Northwest on the life sciences issues there.
    Secretary Moniz. Yes. Well, I am certainly aware of the 
major push, University of Washington, Seattle, et cetera, and 
building up, I think Microsoft was involved in building up 
tremendous programs there.
    Thank you, I mean, for again observing that the Department 
has made and is making tremendous contributions in life science 
which are often not recognized. They are actually derivative of 
the original programs around radiation damage, and that then 
grew into genomics, et cetera.
    On the brain--and also a factoid that might be interesting 
is in our four large light sources, it's now up to about 40 
percent of the use is actually life and medical science 
connected. So it's a really big deal.
    In terms of the brain, we have now, for about a year, been 
having discussions with Francis Collins. He actually initiated 
them. He is eager for the Department of Energy and our 
laboratories to play a role.
    That's based upon two major areas, the expertise around 
sensors and very sensitive measurement devices but also around 
the large scale computation capacity that we have. Of course, 
in the budget the pushing to the next frontier of exascale, 
high performance computing is one of our also highlighted 
areas. One of the many applications can be in terms of a brain 
initiative.
    I'd love to have that discussion because, frankly, we're 
always concerned about mission and making sure that's 
understood that is an appropriate place for us to work. NIH is 
very eager for us to join that.
    Senator Cantwell. Thank you.
    One last thing, last December we were able to pass the 
Manhattan Project National Historic Park in Washington, New 
Mexico and Tennessee. Part of that law requires the Department 
of Energy to enter into an agreement with the Department of the 
Interior within a year to specify roles in how that will be 
administered.
    Can you tell me whether the Department has begun that 
discussion with Interior? And when do you expect to have it 
finalized? By the end of this year?
    Secretary Moniz. The goal is for the end of this year. In 
fact, I was just told this morning in my morning staff meeting 
that there will be a meeting with the Park Service today to 
discuss that.
    Senator Cantwell. So you would expect that that would be 
completed by the end of this year?
    Secretary Moniz. Until I get a report I'm a little 
reluctant to say I expect, but I know that that's the target 
and we will try to meet that target.
    Senator Cantwell. Well, within one year you are supposed to 
specify.
    Secretary Moniz. Yeah.
    Senator Cantwell. So that is a requirement, and you will do 
it.
    Secretary Moniz. That's right.
    Senator Cantwell. And we very much appreciate getting this 
off the ground between the various agencies.
    Secretary Moniz. Yes.
    Of course in the meantime the visiting at Hanford and at 
Oak Ridge of Manhattan sites will continue in the normal way, 
the B reactor, for example.
    Senator Cantwell. Yes, but every time somebody puts out a 
proposal like here are the visiting hours, it is taken up in 
seconds. That is the demand. People are chomping at the bit.
    Secretary Moniz. I see, yeah.
    Senator Cantwell. So, it is not as if some people are 
visiting. That is not the question.
    Secretary Moniz. Right.
    Senator Cantwell. The question is there is so much public 
demand that people view this as probably one of the most 
positive developments and from the perspective of hearing the 
science story behind this----
    Secretary Moniz. Right.
    Senator Cantwell. It is pretty incredible.
    Secretary Moniz. Good. We are pursuing it.
    Senator Cantwell. Thank you so much, and thank you, Madam 
Chairman.
    The Chairman. Thank you. With that we stand adjourned.
    [Whereupon, at 12:25 p.m. the hearing was adjourned.]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
</pre></body></html>
